<html>
<title> - SIXTEEN YEARS AFTER 9/11: ASSESSING SUSPICIOUS ACTIVITY REPORTING EFFORTS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




   SIXTEEN YEARS AFTER 9/11: ASSESSING SUSPICIOUS ACTIVITY REPORTING 
                                EFFORTS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                            COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 13, 2017

                               __________

                           Serial No. 115-27

                               __________

       Printed for the use of the Committee on Homeland Security
                                     



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                     

        Available via the World Wide Web: http://www.govinfo.gov
                               __________
                              
   
                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-416 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                            
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
Scott Perry, Pennsylvania            Donald M. Payne, Jr., New Jersey
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bonnie Watson Coleman, New Jersey
Martha McSally, Arizona              Kathleen M. Rice, New York
John Ratcliffe, Texas                J. Luis Correa, California
Daniel M. Donovan, Jr., New York     Val Butler Demings, Florida
Mike Gallagher, Wisconsin            Nanette Diaz Barragan, California
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
                   Brendan P. Shields, Staff Director
               Steven S. Giaier,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Lou Barletta, Pennsylvania           Kathleen M. Rice, New York
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Will Hurd, Texas                     William R. Keating, Massachusetts
Mike Gallagher, Wisconsin            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
            Nicole Tisdale, Minority Staff Director/Counsel
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence..............................     3

                               Witnesses

Mr. Robin Taylor, Acting Deputy Secretary, Intelligence 
  Operations, U.S. Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
Mr. Rick Fuentes, Superintendent, Office of the Superintendent, 
  State Police, State of New Jersey:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. William B. Evans, Police Commissioner, City of Boston, 
  Commonwealth of Massachusetts:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19
Mr. Joseph M. Flynn, Deputy Director, Northern Virginia Regional 
  Intelligence Center:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
 
   SIXTEEN YEARS AFTER 9/11: ASSESSING SUSPICIOUS ACTIVITY REPORTING 
                                EFFORTS

                              ----------                              


                     Wednesday, September 13, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Peter T. King 
(Chairman of the subcommittee) presiding.
    Present: Representatives King, Perry, Hurd, Rice, Jackson 
Lee, and Keating.
    Mr. King. Good morning. The Committee on Homeland Security, 
Subcommittee on Counterterrorism and Intelligence will come to 
order. The subcommittee is meeting today to hear testimony from 
four experts on assessing suspicious activity reporting 
efforts--I would like to welcome the Members of the 
subcommittee and--to the witnesses who have travelled to be 
here today.
    I now recognize myself for an opening statement.
    In the wake of the terrorist attacks of September 11, 2001, 
a series of new words and phrases entered the American 
vernacular. ``Ground Zero,'' ``al-Qaeda,'' ``connect the 
dots,'' and others became commonplace practically overnight.
    In the years that followed, one new phrase dominated 
advertising space and the public's attention at train stations, 
airports, sporting venues, and more. It reflected the 
commitment Americans made in the hours and days after the 
attack to work together to prevent the next major attack, a 
mutual pledge to remain vigilant for threats to the homeland: 
``If you see something, say something.''
    No phrase better captures the critical role that the 
American public plays in reporting suspicious activity to law 
enforcement. ``See something, say something'' underscores the 
value of efficient and effective information sharing. The 
public shares information with the authorities, who 
subsequently analyze, collaborate, and respond to potential 
terrorist threats.
    This valuable phrase was created by the New York 
Metropolitan Transportation Authority, the MTA, and they 
continue to dedicate resources to promote this campaign and 
share the trademark with DHS and other entities.
    Today, just over 16 years after the terrorist attacks of 9/
11, this subcommittee is meeting to review the progress made in 
ensuring DHS and other law enforcement agencies are working 
together to evaluate tips and leads provided by the public.
    The National Suspicious Activity Reporting Initiative, NSI, 
is a joint effort by DHS and FBI which allows State and local 
partners to share information that they receive from the public 
and send to our Federal partners for further investigation. It 
is an integral part of the Homeland Security landscape. But, of 
course, it is reliant on an engaged public and sustained 
cooperation and support between all levels of law enforcement.
    The witness appearing with us today represent each level of 
this partnership. Each will speak to the value of the programs 
like the NSI provide to Federal, State, and local level, as 
well as the challenges in educating the public about the 
threats we face as a Nation and how best to effectively work 
together.
    These issues are often in the background of our busy lives 
and they are frequently overlooked. However, nearly all 
terrorists incidents, from attacks such as 9/11 to the more 
recent attacks such as the San Bernardino shooting to the 
Boston Marathon bombing, among many more in between, highlight 
issues of public reporting or on-going challenges with 
interagency cooperation.
    If you see something, say something has not only been a 
clever reminder for travelers to keep their eyes open, but it 
truly reflects some of the most important lessons learned after 
the 2001 attacks. The public must remain vigilant and 
determined to report possible threats to our Nation.
    Federal, State, and local departments and agencies 
responsible for keeping people safe must work together. I am, 
therefore, pleased to welcome our witnesses to today's hearing, 
look forward to their testimony. Now I acknowledge, recognize 
the gentlelady from New York, the Ranking Member of the 
subcommittee, Miss Rice.
    [The statement of Chairman King follows:]
                  Statement of Chairman Peter T. King
                           September 13, 2017
    In the wake of the terrorist attacks of September 11, 2001, a 
series of new words and phrases entered the American vernacular 
``Ground Zero,'' ``al-Qaeda,'' ``connect the dots,'' and others, became 
commonplace practically overnight. In the years that followed, one new 
phrase dominated advertising space and the public's attention at train 
stations, airports, sporting venues, and more. It reflected the 
commitment Americans made in the hours and days after the attack to 
work together to prevent the next major attack--a mutual pledge to 
remain vigilant for threats to the homeland: ``If You See Something, 
Say Something.''
    No phrase better captures the critical role that the American 
public plays in reporting suspicious activity to law enforcement. See 
Something, Say Something underscores the value of efficient and 
effective information sharing: The public shares information with the 
authorities who subsequently analyze, collaborate, and respond to 
potential terrorist threats. This valuable phrase was created by the 
New York Metropolitan Transportation Authority (MTA) and they continue 
to dedicate resources to promote this campaign and share the trademark 
with DHS and other entities.
    Today, just over 16 years after the terrorist attacks of 9/11, this 
subcommittee is meeting to review the progress made in ensuring DHS and 
other law enforcement agencies are working together to evaluate tips 
and leads provided by the public. The National Suspicious Activity 
Reporting Initiative (NSI) is a joint effort by DHS and FBI which 
allows State and local partners to share information that they receive 
from the public and send to our Federal partners for further 
investigation. It is an integral part of the homeland security 
landscape--but of course it is reliant on an engaged public and 
sustained cooperation and support between all levels of law 
enforcement.
    The witnesses appearing with us today represent each level of this 
partnership. Each will speak to the value that programs like the NSI 
provide at the Federal, State, and local level, as well as the 
challenges of educating the public about the threats we face as a 
Nation and how best to effectively work together.
    These issues are often in the background of our busy lives and they 
are frequently overlooked. However, nearly all terrorist incidents, 
from attacks such as 9/11, to the more recent attacks such as the San 
Bernardino shooting to the Boston Marathon bombing--among many more in 
between--highlight issues with public reporting or on-going challenges 
with interagency cooperation.
    Ensuring programs like the Nation-wide SAR Initiative and 
corresponding public awareness campaigns continue is vital and a major 
priority for this subcommittee. ``If You See Something, Say Something'' 
has not only been a clever reminder for travelers to keep their eyes 
open, but it truly reflects some of the most important lessons learned 
after the 2001 attacks.
    The public must remain vigilant and determined to report possible 
threats to our Nation. Federal, State, and local departments and 
agencies responsible for keeping people safe must work together.
    I am therefore pleased to welcome our witnesses to today's hearing 
and look forward to their testimony.

    Miss Rice. Thank you, Mr. Chairman, for holding this 
hearing. Thank you to the witnesses for coming to testify 
today. I would also like to take a moment to extend our 
thoughts and prayers to everyone in Texas and Florida and 
everywhere that were affected by Hurricanes Harvey and Irma.
    Chairman King and I know all too well that these 
communities--what they are going through right now and the long 
road to recovery that lies ahead. I think I can speak for the 
Chairman when I say that we will support those efforts in any 
way that we can.
    As we all know, Monday marked 16 years since the terrorist 
attacks on 9/11. We often say that we cannot and will not allow 
terrorists to change our way of life, or change who we are. 
That is true, we will never allow terrorists to make us betray 
the values that bind us together as Americans. We won't allow 
terrorism to make us live in fear.
    But I think we all recognize that the 9/11 attacks did 
change us in a lot of ways. Our Government has changed, it has 
become more centralized and more interconnected in order to 
prepare for, prevent, and respond to acts of terrorism. We have 
changed, all of us.
    We have become more aware of the threat. We don't live in 
fear. We don't let the threat keep us from living our lives. 
But we know to be alert. We know suspicious activity when we 
see it. This hearing is an opportunity to look at some of those 
changes in Government and in the public, and have a 
conversation about the evolution and the current state of 
suspicious activity reporting, or SARs.
    Our SAR programs were established to help facilitate the 
process of sharing terrorism-related suspicious activity 
reporting with the State and local law enforcement. These 
programs require education and training. They require us to 
strike the right balance.
    Suspicious activity reporting efforts, including DHS's ``If 
You See Something, Say Something'' campaign and the Nation-wide 
suspicious activity reporting initiative help to raise public 
awareness and they are necessary tools to detect, deter, and 
combat terrorism in the homeland.
    The success of each of these programs requires continuous 
promotion and active participation by all of our homeland 
security partners, not only law enforcement at all levels, but 
also educators, spiritual leaders, neighbors, and our Nation-
wide community as a whole.
    Unfortunately, within next year's budget for NSI funding 
for SARs is said to be approximately $400,000, down from an 
approximately $2 million annual budget at the time of its 
creation in 2007. It is important that we maintain an adequate 
level of funding, resources, and personnel dedicated to SAR 
efforts in order to limit the risk that terrorism poses to U.S. 
interests at home and abroad.
    As new, emerging, and evolving threats continue to test our 
resolve, we must also continue relying on the public to play an 
important role by notifying law enforcement when someone or 
something poses a potential threat. We must also acknowledge 
that many civil liberties and privacy advocates have expressed 
discontent with SARs over the years as some reporting has been 
improperly used to help fuel fear and paranoia.
    Consequently, some have advocated for greater measures of 
accountability over law enforcement activity, which I support. 
I sincerely hope that with this hearing we can gain a better 
understanding of all the resources necessary for us to continue 
protecting the homeland through suspicious activity reporting.
    We must remain vigilant. We must continue to work together 
and implement strong security measures and guidelines to 
continue quality real-time information-sharing environments. 
Our committee welcomes the opportunity to engage in that 
process. I look forward to hearing our witnesses' priorities 
and recommendations as we look to the future of our information 
sharing and counterterrorism efforts.
    With that, I yield back.
    Mr. King. Thank you, Kathleen. We are pleased to have a 
very distinguished panel of witnesses before us today on this 
vital topic. All the witnesses are reminded their written 
testimony will be submitted for the record. Our first witness 
is Mr. Robin Taylor, the acting deputy secretary of 
intelligence operations at DHS.
    Mr. Taylor joined the DHS Office of Intelligence and 
Analysis after more than 25 years with the Maryland State 
Police, retiring at the rank of captain. This included time 
spent leading MSP's criminal intelligence division in the 
Maryland Coordination and Analysis Center.
    During his service with I&A, he served as the senior 
adviser for law enforcement and as the director for I&A's field 
operations division. He was named acting deputy under secretary 
for intelligence operations in May 2017. He holds a Bachelor's 
degree in political science and Master's degrees in management 
and public administration and business administration.
    He is a graduate of the FBI National Academy and the 
Harvard University National Preparedness Leadership Initiative. 
He is currently working on his third master's degree in 
strategic intelligence at the National Intelligence University 
in Washington, DC. I think he left us all behind with that 
educational background.
    Certainly for me and Kathleen, you are way ahead of us; 
anyway, I recognize Mr. Taylor for his testimony.

      STATEMENT OF ROBIN TAYLOR, ACTING DEPUTY SECRETARY, 
 INTELLIGENCE OPERATIONS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Taylor. Good morning, Chairman King, Ranking Member 
Rice and Members of the committee. Thank you very much for the 
invitation today to speak before you. With regard to this 
important subject, the National Suspicious Activity Reporting 
Initiative, or NSI, alongside of my esteemed colleagues from 
State and local law enforcement. It is truly an honor to be 
here.
    The Department of Homeland Security and Office of 
Intelligence and Analysis, is proud to serve as the executive 
agent for the NSI program and oversee the program management 
office since 2012. Over the last 5 years, we have worked 
diligently alongside of our Federal, State, and local partners 
to enhance information sharing in order to protect our 
communities.
    NSI recognizes the vital role law enforcement plays in 
keeping our communities safe. To that effect, we at DHS have 
strived to provide our partners with the tools they need to 
ensure great information sharing regarding threats within and 
to our communities. It is a core mission of the Department, and 
it is rooted in I&A's mission statement, to equip the homeland 
security enterprise with timely intelligence and information it 
needs to keep the homeland safe, secure, and resilient.
    As you know, NSI was created to fill a void in criminal 
intelligence information sharing with a method or platform that 
would enhance efficiency, effectiveness, and accuracy, while 
respecting the critical need to protect privacy, civil rights, 
and civil liberties of the American people.
    With this in mind, the program must balance the need for 
public safety with the need to safeguard our integrity and our 
way of life, while maintaining public confidence in our law 
enforcement officers and their institutions. We have worked 
hard to collaborate with our partners across the public safety 
spectrum to do just that.
    We endeavor to continue to make improvements to the system 
and the network that forms the NSI framework. Over the past 5 
years, we have learned a great deal as we work across the 
country with both large and small law enforcement agencies and 
the National network of fusion centers. We continue to improve 
strategic messaging and marketing through initiatives, such as 
the ``See Something, Say Something'' campaign.
    We have also learned a great deal by participating in a 
wide variety of independent State, local, private industry, and 
nonprofit organizations' initiatives, all of which add local 
emphasis to our National effort.
    Moving forward, we continue to look for ways to improve our 
approach, not just for information sharing related to criminal 
intelligence threat information, but also to the overall 
process for gathering, vetting, and validating the information 
against a set of approved and established NSI functional 
standards.
    To date, we have seen more than 100,000 SARs submissions 
since 2010, which have led to the initiation or enhancement of 
approximately 1,200 Federal investigations. In addition to 
these SARs, we have helped to establish more than 1,100 
enhancements to the terrorism watch list, again demonstrating 
the value this program brings to our efforts to enhance 
security at the homeland.
    However, I think the more significant return on investment 
is seen through the lens of our State and local partners with 
me today and the value that they place on the information that 
is collected and shared throughout the NSI. While there is more 
work to be done, I look forward to hearing their comments 
related to how it impacts their communities.
    In conclusion, let me highlight that no one agency or 
organization can accomplish the mission of keeping America safe 
alone. It is a shared responsibility. No one can, no one 
person, or no organization or program, can do everything 
necessary to prevent a terrorist attack or other crimes of 
violence.
    But when we work together, we share information and utilize 
common tools and collaborative programs, such as the NSI, we 
can and we do make a difference.
    Thank you again for the opportunity to be here today. I 
will submit the remainder of my comments for the record. Thank 
you very much.
    [The prepared statement of Mr. Taylor follows:]
                   Prepared Statement of Robin Taylor
                           September 13, 2017
    Chairman King, Ranking Member Rice, and Members of the 
subcommittee, thank you for the invitation to be here and to represent 
the men and women who serve in the Department of Homeland Security's 
(DHS) Office of Intelligence and Analysis (I&A) and the Nation-wide 
Suspicious Activity Reporting (SAR) Initiative (NSI).
    Today's hearing addresses a topic critical to the security of our 
Nation, as we have seen time and time again the vital role that law 
enforcement and a vigilant public play in keeping our communities safe. 
In the years since the terrorist attacks on September 11, 2001, the NSI 
program has become a critical facet in our overall counterterrorism 
posture. Further, in the 5 years since the Department took over the 
reins of the NSI, the NSI Program Management Office has continued its 
work to advance the program and provide the tools, training, expertise, 
and assistance called for by our partners, the law enforcement 
officers, fusion center analysts, and community stakeholders who all 
perform critical roles within the NSI information-sharing framework.
                           assessing the need
    As we all know, the threat to our Nation, our citizens, and our 
communities has not diminished since the attacks of 9/11. Our major 
cities remain attractive terrorist targets, as reflected in the Boston 
bombing attacks and the repeated attempts to perpetrate terrorist 
attacks in New York City. We have also seen terrorist attacks carried 
out in our mid-size cities and smaller communities. Attacks such as 
those in San Bernardino, Orlando, and recently in Charlottesville all 
reflect the evolving threat landscape we now face.
    As we continue to adapt our efforts to meet the changing nature of 
this threat picture, the infrastructure we have built to further our 
counterterrorism efforts remains critical. The Nation-wide Suspicious 
Activity Reporting (SAR) Initiative (NSI) was developed in response to 
a number of separate drivers, to include the 9/11 commission report, 
the Intelligence Reform and Terrorism Prevention Act (IRTPA), and a 
number of separate but related activities that respond directly to the 
mandate to establish a ``unified process for reporting, tracking, and 
accessing [SARs]'' as called for in the National Strategy for 
Information Sharing (October 2007). In 2009, the Program Manager for 
the Information Sharing Environment (PM-ISE), working with a number of 
Federal, State, and local partner organizations, conducted an 
``evaluation environment'' at 5 State fusion centers and 7 DHS-
recognized major urban area fusion centers, in coordination with DHS 
and the FBI's eGuardian system, to test and evaluate policies, 
procedures, and technology needed for a unified process for the 
gathering, documenting, processing, analyzing, and sharing of 
suspicious activity determined as being observed behaviors reasonably 
indicative of preoperational planning related to terrorism or other 
criminal activity.
    Those early efforts by PM-ISE and others led to the creation of the 
NSI and the NSI PMO. Subsequently, in 2012, the Under Secretary of I&A 
sent a notice to Congress of our intent to take responsibility for the 
management and support of the NSI Program Management Office (PMO). The 
FBI co-manages the NSI and is primarily responsible for the technical 
aspects of the NSI. Since the FBI is also recognized as the lead for 
counterterrorism investigations, they are not only a partner in the 
advancement of the NSI, but also a key consumer and benefactor of the 
information gathered and shared within the NSI framework.
    Law enforcement professionals cannot protect their communities 
effectively without the help of a vigilant public, who in turn must be 
able to identify and report suspicious behavior and incidents. This 
creates a need for an effective, standardized methodology for sharing 
information that is both meaningful and actionable in the face of an 
imminent threat. Since 2010, over 100,000 Suspicious Activity Reports 
have generated over 2,300 Information-Sharing Environment (ISE) SARs 
that initiated or enhanced an FBI investigation and/or were connected 
to the Terrorism Screening Center (TSC) Watchlist. Further, ISE-SAR 
information was included in over 2,000 intelligence products.
    While addressing terrorism and other violent crimes, we must also 
be sure to safeguard the protection of civil rights, civil liberties, 
and privacy. As such, this program is subject to extensive scrutiny and 
oversight.
    Although terrorist attacks on our communities have Federal 
jurisdictional impact, pre-incident activities carried out by 
terrorists prior to conducting attacks may be unknown to Federal law 
enforcement. In February 2015, the National Consortium for the Study of 
Terrorism and Responses to Terrorism (START), published a report titled 
Validation of the Nationwide Suspicious Activity Reporting (SAR) 
Initiative: Identifying Suspicious Activities from the Extremist Crime 
Database (ECDB) and the American Terrorism Study (ATS). The START study 
looked at SAR reporting in two open-source projects, the ECDB and the 
ATS, referencing the 16 indicators and behaviors utilized to determine 
if a tip or lead was reasonably indicative of a potential link to 
terrorism. The START study verifies the utility of the NSI, which 
provides law enforcement and homeland security agencies with a uniform 
method for gathering and reporting raw tips, leads, and reports of 
suspicious activity. This data is reviewed and vetted by trained fusion 
center personnel using established standards. From an analytical 
perspective, the study supports how the vetting efforts of trained 
analysts may ultimately lead to the enhancement of terrorist 
investigations. Furthermore, analysts' reliance upon the established 16 
ISE-SAR behaviors is validated by this study and will ultimately assist 
them in the potential reporting of SAR and the development of products 
that use and evaluate SAR.
                      the functions of the nsi pmo
    The NSI is not a single monolithic program; rather it is a 
coordinated, distributed effort that leverages and integrates all ISE-
SAR-related activities into a National unified process. The overarching 
strategy is to implement common processes, policies, and technical 
solutions for gathering, documenting, processing, analyzing, and 
sharing information about terrorism-related suspicious activities. The 
ultimate objective is for NSI participants at all levels of government 
to adopt consistent policies, standards, and procedures that foster 
broader sharing of SARs while ensuring that privacy and civil liberties 
are appropriately protected in accordance with Federal, State, and 
local laws and regulations.
    The NSI is a shared responsibility, and consists of a decentralized 
structure that relies on every stakeholder to do its part. The NSI 
Enterprise as a whole cannot function and will not serve its mandate 
without each person and partner organization doing its part.
    Specifically, the NSI PMO is responsible for overall planning and 
coordination of the NSI, to include development of top-level policies, 
processes, and standards, but defers to respective Federal, State, and 
local agencies to implement and deploy system solutions that are 
consistent with that direction and are tailored to their local business 
process and system environments. The PMO coordinates the Nation-wide 
implementation of the SAR process. In this role, it advises and assists 
participating agencies in implementing NSI solutions and adjudicating 
conflicts where necessary to achieve a smooth implementation across the 
Information-Sharing Enterprise (ISE).
    The PMO is also responsible for maintaining and updating the NSI 
operating procedures, including publication of updates to the Concept 
of Operations (CONOPS) as required to reflect operational improvements. 
The NSI provides guidance to participating agencies on the operating 
procedures associated with the individual steps in the NSI cycle, but 
relies heavily on participating agency expertise in key areas such as 
tactical risk assessment and information analysis. Further, the PMO is 
responsible for working to ensure that all NSI activities are carried 
out in a manner consistent with the ISE Privacy Guidelines, the ISE-SAR 
Functional Standard, and other Federal, State, and local laws and 
regulations.
    A comprehensive training program for NSI participants is a vital 
component of an effective NSI process. This training program addresses 
the needs of all levels of law enforcement personnel so that they can 
recognize the behaviors and incidents that represent terrorism-related 
suspicious activity, while ensuring that privacy and civil liberties 
are protected. DHS I&A, in coordination with DHS Office of Operations 
Coordination (OPS), leads the NSI's efforts related to policy, 
training, and outreach, while the FBI leads the deployment, 
maintenance, and access efforts surrounding the NSI technology 
platform, eGuardian.
    The NSI PMO is responsible for maintaining and updating the ISE-SAR 
Functional Standard and its associated technical artifacts. Finally, 
although neither an acquisition nor an implementing organization, the 
NSI PMO is responsible for providing implementation guidance and 
operational support to NSI participants. This support includes 
presentations at conferences, workshops, and similar forums as well as 
direct interaction with sites where required. The PMO and FBI eGuardian 
managers provide day-to-day operational support capabilities such as 
24-7 help-desks, on-call support, etc., but typically rely on partners 
and contracted support to actually provide these services.
    By design, the NSI PMO is a relatively small operation, working as 
part of a multi-agency, interagency process. The NSI PMO prioritizes 
focusing resources on the program to the greatest extent possible, and 
minimizing overhead costs to ensure available resources are dedicated 
to the efforts of law enforcement officers and the Enterprise partners. 
The NSI PMO operates on a small budget relative to the impact the 
office has demonstrated, and continues to expand on the program.
                   the role of our strategic partners
    The Department of Justice (DOJ), through the Bureau of Justice 
Assistance (BJA), provided initial stand-up funding for the NSI and 
managed the program from its inception until the program was 
transitioned out of BJA. DOJ also provides legal and policy expertise 
on historic policy and implementation decisions associated with the 
NSI, as well as facilitating input from its Global Advisory Committee 
(GAC),\1\ and the Criminal Intelligence Coordinating Council (CICC).\2\
---------------------------------------------------------------------------
    \1\ The GAC consists of organizations appointed by the U.S. 
Attorney General or his/her designee. The GAC acts as the focal point 
for justice information-sharing activities and works to provide the 
U.S. Attorney General and the U.S. Department of Justice (DOJ) with 
appropriate input from local, State, Tribal, and Federal agencies/
associations in the on-going pursuit of interjurisdictional and 
multidisciplinary justice information sharing.
    \2\ The Criminal Intelligence Coordinating Council (CICC) is 
sponsored and supported by DOJ and works across the full spectrum of 
law enforcement and intelligence agencies to establish priorities, 
National best practices, and support for Federal, State, local, and 
Tribal law enforcement and homeland security agencies in their ability 
to develop and share criminal intelligence and information Nation-wide.
---------------------------------------------------------------------------
    Crime Stoppers USA (CSUSA) is the National Crime Stoppers 
organization that spans the United States to create a network of local 
programs that work together to prevent and solve crimes in communities 
and schools across the Nation. Its mission is to develop innovative 
resources and partnerships that promote Crime Stoppers throughout the 
United States. The NSI and CSUSA have a Memorandum of Understanding 
establishing a partnership that has directly increased the amount of 
quality reporting through their unique anonymous tips programs. The NSI 
and CSUSA are committed to advancing our respective missions through 
enhanced training, strategic partnerships, and support in many areas 
where mutual interest is identified.
                              key metrics
    Through June 2017, the NSI has received over 100,000 SAR 
submissions, of which over 35,000 contained a potential nexus to 
terrorism and were submitted to eGuardian as ISE-SARs. Of those 
reports, over 2,300 have been identified as being either associated 
with an FBI investigation and/or associated with a subject known to the 
Terrorism Screening Center (TSC). These numbers represent both a 
testament to the good work being done in vetting, validating, and 
assessing these reports, and to the work being done by our State, 
local, Tribal, and territorial (SLTT) partners to distill a limited 
number of reports from the millions of tips and leads received 
throughout the country annually.
    Over 2,000 intelligence products have been produced that 
incorporate some aspect of an ISE-SAR into the product itself. These 
products include the Roll Call Release, the Field Analysis Report, and 
Joint Special Event Threat Assessments. The products exemplify the 
value being placed on ISE-SAR reporting when coupled with additional 
information at the Federal and SLTT levels.
    The quality reporting being provided through the NSI is evident by 
the examples provided above; however, those numbers are directly 
associated with the level of effort that has been focused on training 
and outreach. The NSI conducted 181 technical assistance deliveries in 
support of our SLTT partners from 2010 to June 2017. The NSI's hometown 
security partners' video series, which focuses on specific sector 
outreach, such as private-sector security, point-of-sale retailers, and 
line officers, was viewed over 480,000 times. Within that same time 
period, over 3,000 Federal, State, and local criminal intelligence 
personnel have received more in-depth training through our SAR in-
residence training. This course focuses on the ISE-SAR vetting process, 
the use of technology for reporting, and the importance of protecting 
the privacy and civil rights/civil liberties of our citizens.
    More recently, from January 2016 through June 2017, the NSI 
conducted 21 technical assistance deliveries, the hometown security 
partner videos were viewed over 56,000 times, and over 400 partner 
criminal intelligence personnel went through our SAR in-residence 
training.
    In addition to its intended benefits, the NSI has also allowed for 
numerous tips and leads to reach law enforcement. As just one example 
of many being reviewed, the State of Texas Fusion Center alone reported 
over 2,300 non-terrorism-related criminal SARs that came in through the 
NSI established SAR framework but were not shared through the FBI 
eGuardian platform because they did not meet the ISE-SAR threshold 
outlined in the Functional Standard. Still, those suspicious activity 
reports resulted in significant investigations into a wide range of 
felony cases including murder, robbery, sexual assaults, high-risk 
threats to children, human trafficking, drug trafficking, violent 
gangs, and many others. We continue to work with State and local law 
enforcement partners across the country to begin capturing more 
information on the broader hometown security and public safety impacts 
of the NSI framework.
                             moving forward
    The NSI PMO will continue to focus on the core mission of keeping 
our communities safe and protecting our critical infrastructure and key 
resources. It will do this by continuing to focus on ensuring a 
standardized process for conducting stakeholder outreach; ensuring 
civil rights and privacy protections continue to be the cornerstone of 
the program; delivering training, and facilitating continued 
improvements in program support; and advancing technology to simplify 
and expand sharing of critical information and reporting.
    The NSI PMO and our partners across Government and the private 
sector will continue to identify new opportunities and build strategic 
partnerships to advance the NSI and encourage our partners and our 
stakeholders to increase reporting and strengthen the NSI Enterprise. 
With your support, the NSI PMO will continue to improve its systems, 
and expand training support to our law enforcement partners and key 
stakeholders.
    Ultimately, the NSI relies on the public to report what they see, 
and to know that if they ``See Something, Say Something''. The NSI does 
not only need individuals to do their duty, it also needs 
organizations, associations, corporations, and industries to do their 
part. Congress can add great value here by creating meaningful 
incentives for private industry and corporations to train their 
workforce on what to look for and how to report what they see. Most 
private-sector organizations do not think a major event will affect 
them, so they weigh the cost of devoting personnel time to NSI training 
against the improbability they will see something major occurring, and 
thus forgo what we see as a critical need. The NSI would like the 
opportunity to discuss further with Congress and this committee 
innovative ways to increase participation by the private sector.
    Thank you for the opportunity to testify, and I look forward to 
your questions.

    Mr. King. Thank you, Mr. Taylor, for your testimony.
    Our second witness is Rick Fuentes, superintendent of the 
New Jersey State Police. Superintendent Fuentes enlisted in the 
State police in January 1978. He was a supervisor of the Joint 
Terrorism Task Force narcotics unit and the street gang unit.
    Prior to being named acting superintendent, he was assigned 
as the chief of the Intelligence Bureau. He earned a Bachelor 
of Science from Kean College in New Jersey in 1977, a Master of 
Arts in criminal justice from John Jay College of Criminal 
Justice, New York, in 1992 and a Doctorate of Philosophy in 
Criminal Justice from City University of New York in 1998.
    In 2006, Colonel Fuentes was appointed to a 3-year term as 
general chair of the State and Provincial Division of the 
International Association of Chiefs of Police. He is a member 
of the U.S. Attorney General's global advisory committee, a 
member of the Homeland Security and Law Enforcement Partners 
group of the Office of the DNI, and an appointed member of 
Harvard University's Executive Session on Policing and Public 
Safety.
    Superintendent Fuentes, thank you for being here today, and 
you are recognized for your testimony. Thank you.

   STATEMENT OF RICK FUENTES, SUPERINTENDENT, OFFICE OF THE 
       SUPERINTENDENT, STATE POLICE, STATE OF NEW JERSEY

    Mr. Fuentes. Thank you, Chairman, for reading that 
testimony exactly as my mother wrote it. I appreciate it.
    Chairman King, Ranking Member Rice, and the subcommittee, I 
thank you for the invitation to testify on this important 
topic. In addition to speaking about New Jersey's participation 
in DHS's NSI program, I understand that this committee may be 
interested in some examples of information-sharing initiatives 
in the State.
    I have submitted written testimony, and will summarize that 
testimony now. We receive upwards of 1,400 SARs each year, of 
which approximately 30 percent are accepted for further 
investigation by the FBI. All SARs are received at our State 
fusion center, the Regional Operations and Intelligence Center, 
called the ROIC, which operates with significant financial 
support from the North Jersey Urban Area of Security Initiative 
or UASI and DHS.
    The SARs are received at a desk that is staffed 24/7 by 
personnel from the Office of Homeland Security and 
Preparedness. The FBI has a right to first refusal on all SARs. 
The SARs that are not accepted by the FBI are investigated 
either by OHS&P or a local police department.
    None of them go unanswered. Sometimes SARs disclose other 
criminal activities such as drug trafficking, fraud, or illegal 
weapons possession. Given the emerging pattern that we see 
today that radicalized individuals may take as much as 3 to 5 
years to act out, it is in the interest of public safety to 
leverage information in State databases as it pertains to 
security officer registrations and firearms, IDs, and permits, 
by those individuals who are subjects of an FBI guard and 
investigation.
    This is particularly important when it viewed the incidents 
involving Omar Mateen, down in Atlanta, and Ahmad Khan Rahami 
who stands accused of the bombings in New York and New Jersey 
last year. Other databases to vet include bounty hunters, 
private detectives, railroad police, et cetera.
    The Office of Homeland Security and Preparedness checks 
those databases upon receiving every SAR. In an effort to 
remain vigilant in cases where those individuals may seek to 
obtain a weapon, we are looking now toward engaging in a 
project, with the FBI, that allows the State to keep looking at 
those databases for a period of 3 to 5 years, because when the 
FBI accepts a SAR it has risen to the level of reasonable 
articulable suspicion, which allows us to maintain an 
intelligence report for a period of 5 years after which it must 
be expunged and we can continue to monitor those databases. I 
think that covers the period, that I just mentioned, for what 
we see in radicalized individuals acting out and over what 
period of time that occurs.
    As I pointed out, just as a SAR can disclose information 
indicative of terrorist behavior in preoperational actions, it 
can also reveal criminal activity that affects public safety. 
To facilitate the disclosure and elimination of that criminal 
activity, the ROIC hosts weekly phone calls and monthly 
meetings of police chiefs from more than two dozen departments 
in the area encompassing Newark, Patterson, and Jersey City.
    The emphasis is on solving violent crime in those meetings. 
That is a relatively small surface area of the State of New 
Jersey that is host to more than half of the homicides and 
shootings in the State of New Jersey. Through the creation of 
the ROIC Real-Time Crime Centers, which service both north and 
south Jersey, we absorb some of the fact-finding work that 
consumes a detective's post-shooting or homicide investigation 
and keeps them on the street.
    So, instead of the detective having to go back to the 
police department to run these checks, the Real-Time Crime 
Center does it for them and it keeps them pointed forward on 
the cases that they are involved in.
    Every weapon that is seized in a crime, every crime gun, is 
as soon as it is submitted to our lab, it goes through a very 
quick process over a period of 24 to 48 hours. That so many 
guns are used in multiple crimes it is important to get the 
lead value out of every single one of those weapons and to get 
that back to the police department.
    Leveraging information from both the New Jersey health 
community and law enforcement we can now analyze and report 
dangerous trends in the spread of heroin, fentanyl, and other 
illicit drugs through our drug monitoring program.
    This program has enormous potential Nation-wide to the use 
of the National Fusion Center Network.
    Finally, through New Jersey Cybersecurity and 
Communications Integrations Cell, which is also located in the 
ROIC and supervised by the Office of Homeland Security and 
Preparedness, we can respond to the growing threat of cyber 
terrorism or cyber attacks to State or local government systems 
as well as assisting the private sector in this regard. We can 
also make those entities continually aware of potential cyber 
vulnerabilities in their systems.
    So I want to thank you, Chairman King, and your 
subcommittee, for your attention to this subject of great 
importance to the continued public safety and welfare of the 
country and I look forward to answering any of your questions.
    [The prepared statement of Mr. Fuentes follows:]
                   Prepared Statement of Rick Fuentes
                           September 13, 2017
    Chairman King, Ranking Member Rice, and the Members of the 
Subcommittee on Counterterrorism and Intelligence. Thank you for your 
kind invitation and the opportunity to speak before this distinguished 
subcommittee on the topic of ``Sixteen Years after 9/11: Assessing 
Suspicious Activity Reporting Efforts.'' In addition to speaking about 
the Department of Homeland Security, Office of Intelligence and 
Analysis, Nation-wide Suspicious Activity (SAR) Reporting Initiative 
(NSI), I understand that this subcommittee is also interested in 
broader information-sharing initiatives on-going in the States. I will 
address both topics in this testimony.
    In the aftermath of the terror attacks of September 11, 2001, the 
9/11 Commission Report highlighted the inability of the public safety 
and intelligence communities to identify events and behaviors that 
could have been scrutinized in order to identify precursor activity 
leading to acts of terrorism. Our Nation demanded answers as to how 
this information was overlooked and what ``dots'' needed to be 
connected to prevent future acts from occurring. This same set of 
circumstances has also frustrated law enforcement agencies, who, in 
their efforts to adopt intelligence-led policing strategies have been 
often constrained by technological, political, or other policy issues 
that prevented their ability to maximize potential information-sharing 
practices.
    New Jersey, by leveraging Federal, State, local, government 
agencies and other partners has laid the groundwork and further 
demonstrated through practice that information sharing can create 
efficiencies that enhance public safety. This testimony examines New 
Jersey's solution to this dilemma--the New Jersey Information-Sharing 
Environment (NJ-ISE)--and details its operational components and way 
forward in enhancing today's information-sharing capacity within the 
homeland security enterprise.
    The office for promoting an information-sharing environment (ISE) 
at the National level, was established by the Intelligence Reform and 
Terrorism Prevention Act of 2004. The goal was to ensure closer 
coordination and integration of the 16 agencies that make up the 
Nation's intelligence community. Through Executive Order 13356, in 2005 
President Bush enhanced information sharing between Federal agencies 
and appropriate authorities of State and local governments. In 
recognition of New Jersey's consistent efforts to improve State-wide 
information sharing, grant funding was secured from the Office of the 
Director of National Intelligence, program manager of the information-
sharing environment (PM-ISE) and administered through the Department of 
Justice's Bureau of Justice Assistance (BJA) to develop the NJ-ISE.
    Underlying the concept of the NJ-ISE is the understanding that 
terrorism and criminal activity is not deterred by a jurisdictional or 
geographical boundary. To the contrary, these activities recognize no 
boundaries; therefore, successful crime and terrorism prevention 
initiatives must invest in strong partnerships across these lines. The 
development and enhancement of robust collaborative partnerships 
between law enforcement, public safety, and private-sector agencies is 
a foundational aspect of the NJ-ISE.
    There are 565 municipalities in the State of New Jersey, which 
equates to 565 silos of information stored on municipal databases and 
records management systems. Through the use of technology, the NJ-ISE 
has worked toward enabling information pathways to connect these 
disparate legacy systems into one information-sharing environment. 
Through the work of the NJ-ISE, the virtual barriers preventing the 
sharing of this information are being dismantled through an overall 
enterprise strategy.
    As a means of sustaining this strategy, a governance structure has 
been formed to include senior leadership from the New Jersey State 
Police (NJSP), New Jersey Office of Homeland Security and Preparedness 
(OHSP), Office of Information Technology (OIT), Office of the Attorney 
General (OAG), and New Jersey's Urban Area Security Initiative (UASI). 
Their collective guidance has driven the overall priorities of the NJ-
ISE, to include the evolution of policy and strategy.
    A key strategy of the National PM-ISE is to apply information 
technologies to facilitate the exchange of information. Extensible 
Markup Language (XML) is the technology that was created for this 
purpose, and it serves as the ``glue'' that promotes interoperability 
and expanded collaborations between agencies.
    From a technology perspective, NJ-ISE promotes the free flow of 
information through secure access to an internet-based federation, in 
conformance with National standards and safeguards. Optimal investment 
through the use and reuse of technology that currently exists on a 
local, county, and State level is critical to the mission and 
sustainment of this initiative.
    Since its inception, this initiative has been supported by the 
National PM-ISE through initial research funding. This funding 
allocation has permitted the involvement of subject-matter experts to 
assist in developing the conceptual framework for the NJ-ISE. 
Specifically, the Integrated Justice Information Systems Institute 
(IJIS), a 501(c)(3) non-profit corporation working on behalf of the 
technology needs of the U.S. Department of Justice, has also been 
supporting the NJ-ISE by providing input on the development of guiding 
documents, to include the NJ-ISE Privacy Policy and Concept of 
Operations. With their support and through a collaboration of public 
and private-sector partners, the NJ-ISE has promulgated a Nationally-
recognized information-sharing architecture. The components underlying 
the NJ-ISE are provided, as follows:
      suspicious activity reporting program in new jersey (njsar)
    New Jersey receives over 1,400 SARs annually, of which 
approximately 30 percent are selected by the FBI for further 
investigation. SARs are shared with law enforcement partners throughout 
the State, and are linked to the FBI's National SAR system, eGuardian. 
The eGuardian system partners with the Nation-wide SAR Initiative (NSI) 
to form a single repository accessible to thousands of law enforcement 
personnel and analysts Nation-wide.
    NJSAR uses the end-to-end process of the intelligence cycle, 
specifically in the collection, processing, reporting, analyzing, and 
sharing of SARs. NJSAR disseminates suspicious activity information to 
the New Jersey Office of Homeland Security and Preparedness (OHSP), New 
Jersey State Police (NJSP), FBI Joint Terrorism Task Force (JTTF), 
County Counterterrorism Coordinators (CTCs), Municipal Counterterrorism 
Coordinators (MCTCs), and our local law enforcement partners. This 
State-wide information-sharing network was instituted to ensure that 
there is a seamless line of communication and coordination among all 
levels of law enforcement in New Jersey for all terrorism and homeland 
security-related issues.
    The NJSAR program is seated in New Jersey's fusion center, the 
Regional Operations and Intelligence Center (ROIC) and is staffed and 
managed by members of OHSP. OHSP is responsible for the collection, 
analysis, and dissemination of SARs. NJSAR enables authorized law 
enforcement users to retrieve and analyze reports on incidents in New 
Jersey. It has adopted best practices and National standards for SAR 
sharing throughout Federal, State, county, and local law enforcement 
agencies. Access to NJSAR is through NCIC 2000, and is only available 
to law enforcement users who have completed the required training.
    In New Jersey, SARs are received at OHSP's Counterterrorism 
(CTWatch) Unit, which is the 24/7 operation housed at the ROIC that 
manages all incoming suspicious activity reports. CTWatch operates in 
collaboration with the ROIC to monitor terrorism-related events of 
significance or relevance to the State. SARs are gathered from a 
variety of sources, including law enforcement, private-sector security 
officials, and the public. Reporting generally takes place through the 
State's SAR tipline and email, with access to language specialists to 
assist in translation, as may be needed. The goal of the SAR system is 
to enable authorized law enforcement users to retrieve, share, analyze, 
and disseminate SARs in New Jersey in a timely manner. The system 
connects all 21 counties in New Jersey with the FBI's eGuardian system.
    Once a SAR is entered into NJSAR, an automatic and immediate alert 
notice is sent to key law enforcement partners in the State, to include 
the FBI, NJSP, OHSP, and the CTCs. In New Jersey, the FBI has first 
right of refusal for all SARs in the State. If the FBI pursues the SAR, 
it is maintained in the FBI's databases. If the SAR is relinquished to 
the State, OHSP assumes the investigation in coordination with the 
county prosecutor's office or a local police department.
    All SARs received in New Jersey must meet the State and Federal SAR 
thresholds of the NSI Information-Sharing Environment Functional 
Standards for Suspicious Activity Reporting https://nsi.ncirc.gov/
documents/SAR_FS_1.5.5_- PMISE.pdf. New Jersey also adheres to a State-
wide Privacy SAR Policy. Pursuant to the NJ policy, all SARs are 
reviewed after 5 years to ensure privacy and retention compliance. SARs 
must be based on observed behaviors reasonably indicative of pre-
operational planning related to terrorism or other criminal activity. 
Race, ethnicity, gender, national origin, religion, and sexual 
orientation are not factors creating suspicion, but these attributes 
may be documented to support suspect description for identification 
purposes.
    In 2016, a directive was issued by the New Jersey Office of the 
Attorney General to guide law enforcement on the proper reporting of 
suspicious activity. This directive outlined the procedures and 
guidelines within the State of New Jersey for the reporting of SARs.
    The collection, analysis, sharing, and investigation of SAR 
information remains a critical component of the State's 
counterterrorism strategy. Across the Nation, we continue to see 
terrorism plots thwarted as a result of suspicious activity passed 
along to the FBI JTTFs.
    In 2005, New Jersey thwarted a potential terrorist attack that 
later became known as the ``Fort Dix Six.'' The Newark Division JTTF 
became aware of these subjects as a result of a suspicious activity 
report.
    Another notable NJSAR success story occurred in May 2017, when an 
individual from Point Pleasant, New Jersey, was charged with plotting 
to build a pressure-cooker bomb and detonate it in New York City in 
support of ISIS. Prior to this individual's arrest, Point Pleasant 
police submitted a suspicious activity report after a family member 
notified police that this individual was in possession of a weapon and 
indicated an intention to kill the family dog. During the ensuing 
investigation, police discovered a copy of Inspire magazine, a 
publication affiliated with the group, al-Qaeda in the Arabian 
Peninsula. Police disclosed that this individual had been conducting 
research on how to make a pressure-cooker bomb, as revealed in the 
Inspire article, ``How to Make a Bomb in the Kitchen of Your Mom.''
    It is important to note that the ROIC and OHSP are currently 
engaged in a pilot project with the FBI to enhance State and local 
integration with the FBI on SARs that are accepted for a preliminary or 
full field investigation. This project recognizes that databases in the 
possession and oversight of State law enforcement have significant 
value in determining if an individual who either is, or has been, the 
subject of an FBI eGuardian investigation may be legitimately seeking 
to purchase a weapon or applying to become a security guard. As in the 
case of Omar Mateen, who attacked the Pulse Night Club in Orlando in 
June 2016, or, Ahmad Khan Rahimi, who is accused of setting off 
explosive devices in New Jersey and New York in September 2016, both of 
these individuals made legal purchases of weapons in their roles as 
security guards. Individuals who are the subjects of SARs of sufficient 
interest and heightened suspicion to warrant an investigation by the 
FBI can continue to be monitored for any weapons purchase or a security 
guard employment application. Given that the path to overt terrorist 
action can take several years, any information disclosing the purchase 
of a weapon during that period can be immediately forwarded to the FBI 
as a means to determine whether an investigation should be continued or 
re-opened.
    Aside from the NJSAR process to reveal possible terrorism activity, 
the NJ-ISE also includes several crime-fighting initiatives, with the 
understanding that terrorism is often rooted in criminal activity that 
can be disclosed in law enforcement's day-to-day investigative 
routines. Here are some of successful and collaborative crime-fighting 
initiatives:
                  route 21 corridor status (corrstat)
    A key NJ-ISE initiative has been the development of a cross-
jurisdictional collaboration platform focused upon a New Jersey crime-
fighting and information-sharing initiative referred to as CorrStat. 
This initiative was established in 2009 by the ROIC and UASI as a 
cross-jurisdictional, crime-fighting and information-sharing experiment 
primarily focused upon the cities of Paterson, Passaic, and Newark, all 
located along New Jersey's Route 21 highway. This geographical area, 
although comprising less than 5 percent of the State, is host to more 
than half of the State's homicides and gun crimes. Spillover of this 
criminal activity also affected the public safety of more than 20 
smaller municipalities co-located along this corridor.
    The CorrStat Initiative remains the ROIC's cornerstone initiative 
to promote information sharing, intelligence-led policing and the 
sharing of resources amongst the law enforcement agencies located in or 
near the Route 21 Corridor. CorrStat participants conduct face-to-face 
meetings on a monthly basis and the ROIC prepares for these meetings 
with daily and weekly calls to thoroughly assess crime in those 
jurisdictions. The program has grown from 16 jurisdictions and 3 County 
Prosecutor offices to 28 municipalities, 4 County Prosecutor offices, 
the Port Authority of NY/NJ, NJ Parole, NJ Probation, NJ Alcohol 
Beverage Control (ABC), and various units of the NJSP.
    The CorrStat Initiative continues to receive high marks from the 
police chiefs and directors that participate in the initiative. Chiefs 
and directors commend the timely information sharing that allows for 
investigative concentration on the worst criminal offenders, as well as 
updates on emerging crime trends. Investigators and analysts working in 
the CorrStat region participate in interactive, audiovisual conference 
calls hosted three times a week by the ROIC, utilizing Federal Homeland 
Security Information Network (HSIN) Connect technology in order to 
create situational awareness among all call participants. Additionally, 
both scheduled and ad hoc, multi-layered intelligence products have 
assisted law enforcement executives in making informed decisions 
regarding the allocation of resources. Importantly, the CorrStat 
Initiative has been instrumental in promoting the value and need of 
intelligence-led policing concepts to the participant law enforcement 
executives.
          corrstat region real-time crime center (rtcc-north)
    Created as a satellite of the ROIC and located at the headquarters 
of the Newark Police Department, the RTCC-North was established in the 
CorrStat region to address the imminent need for tactical information 
and intelligence in the aftermath of a violent crime. It is important 
to note that State and local fusion centers follow a strict template 
for analysis, refining information to produce concise intelligence 
products thoroughly vetted for privacy concerns. From start to finish, 
this process can take 24 hours. Unfortunately, serious and violent 
crime requires more imminent services.
    The value of the RTCC-North lies in its ability to satisfy the 
immediate needs of detectives and investigators in their pursuit of 
violent criminal offenders. Detectives and investigators who must 
interrupt their street investigation to conduct records checks, query 
criminal and intelligence databases and contact other agencies lose 
precious time that can give advantage to criminals attempting to flee 
their criminal activities. The RTCC-North assumes that responsibility, 
keeping detectives on the street and making the investigation of 
violent crimes more effective and improving solution rates. For its 
part as the flagship of information-sharing in NJ, the ROIC provides 
leadership, direction, and guidance to the RTCC-North and facilitates 
access to advanced analytics and additional personnel. RTCC-North has 
had an immediate and positive impact on crime-fighting efforts in the 
CorrStat region. This has resulted in greater efficiency of effort and 
increased information sharing.
                  real-time crime center (rtcc-south)
    Operating in similar fashion to the RTCC-North, the RTCC-South was 
established in March 2017 as the second satellite of the ROIC to 
service the Camden to Atlantic City corridor, as well as to the more 
populated communities of Bridgeton, Millville, and Vineland. RTCC-South 
provides actionable and timely intelligence, focusing on inter-
jurisdictional offenders and emerging crime trends in Cumberland 
County. Similar to the CorrStat Initiative in the northern part of the 
State, the ROIC hosts monthly meetings in South Jersey that are 
referred to as South Jersey Status (SJ-Stat). Like CorrStat, SJ-Stat 
operates on the core value, ``command-driven, intelligence-led, cross-
jurisdictional information sharing and collaboration.'' In the short 
time since its inception, both SJ-Stat and RTCC-South has proven to be 
a valuable asset to the law enforcement agencies operating in south 
Jersey.
                    drug monitoring initiative (dmi)
    In 2014, the ROIC implemented the Drug Monitoring Initiative (DMI) 
to assess drug activity in New Jersey and the surrounding region. The 
DMI establishes a multi-jurisdictional, multi-State drug incident 
information-sharing environment through the robust collection and 
analysis of drug seizures, overdoses, related criminal behavior and 
health care-related services. The DMI concept bolsters the development 
of policies and practices that enable interdisciplinary collaboration 
between public safety and public health agencies to address drug-
related issues. This innovative approach enables the gathering and 
analysis of investigative and administrative data to develop a 360-
degree view of the drug environment. A positive impact of the DMI has 
been its ability to interpret New Jersey's drug environment through 
diverse data sets. This has led to direct support of law enforcement 
investigations through the collection and analysis of drug seizures, 
the creation of a heroin stamp database and increased awareness through 
law enforcement training. The capabilities of the DMI have also 
supported county prosecutor's offices as they seek to charge suspects 
in strict liability cases from fatal drug overdoses. Furthermore, the 
DMI has enabled public health entities to target their outreach and 
addiction services efforts in a highly-focused manner, directly where 
drug overdoses are most frequently occurring. Lastly, the DMI has 
fostered the environment for law enforcement and public health to 
collaborate, resulting in a holistic and comprehensive approach to 
combating the State's illegal drug problem.
    The DMI initiative in New Jersey presents a template and 
opportunity for a similar Federal effort. By leveraging the National 
network of 78 State and local fusion centers across the country, the 
U.S. Department of Health and Department of Justice through the Drug 
Enforcement Administration can more closely monitor the spread of 
illicit drugs, such as heroin and fentanyl across the United States. 
Information on State and local patterns of drug distribution and use 
could be transmitted to DEA on a daily or weekly basis to enable 
intelligence assessments. Those assessments might guide the tactical 
deployment of Federal resources in a manner similar to a FEMA response 
to a local or State emergency.
 new jersey cybersecurity and communications integration cell (njccic)
    In early 2013, in response to the growing threat of cyber terrorism 
or cyber attacks, the ROIC was tasked with engaging with State partners 
from the New Jersey Office of Information Technology (OIT) and OHSP to 
develop a cyber mitigation and analysis function for New Jersey. The 
outgrowth of this tasking was the creation of the New Jersey 
Cybersecurity and Communications Integration Cell (NJCCIC). Located in 
the ROIC, the NJCCIC is New Jersey's ``one-stop-shop'' for sharing 
cyber threat information between and amongst local, State, and Federal 
authorities, as well as the private-sector and non-profit information 
sharing and analysis centers (ISACs). Its multidisciplinary analysis 
supports State-wide cyber risk management, incident response, and 
investigations. The NJCCIC is uniquely positioned at the intersection 
of local and Federal Government, with close proximity to New Jersey's 
critical infrastructure owners and operators. As such, the NJCCIC 
bridges the digital divide between the local cyber threat landscape and 
a diverse suite of operational assets across the public and private 
sectors.
    Since the inception of the NJCCIC, law enforcement and homeland 
security agencies, as well as private-sector entities, have benefited 
from increased awareness of potential cyber vulnerabilities. The NJCCIC 
has leveraged its cyber subject-matter experts to analyze Nationally-
generated cyber threat information and derive the specific implications 
for the State. Through partnerships and information sharing with the 
FBI and DHS, the NJCCIC is well-positioned to detect and mitigate cyber 
threats from nation-state actors. Furthermore, the NJCCIC has been 
instrumental in assisting law enforcement in New Jersey to understand 
the potential threats posed to them by their on-line presence and 
conduct.
                  crime gun intelligence center (cgic)
    Over the last 30 months, the New Jersey State Police has processed 
over 5,000 crime guns under a revised Crime Gun Protocol. The protocol 
calls for a thorough forensic review of each crime gun allowing for the 
collection of fingerprints, DNA, and other biological and trace 
evidence. Data from the crime guns, defined as those weapons which have 
been used in a crime, illegally possessed/owned, or discarded, is then 
entered through the National Integrated Ballistics Information Network 
(NIBIN) and compared to other shooting incidents throughout the Nation. 
Results are generated and shared within 48 hours of submission to the 
forensic laboratory.
    Thus far, the NJSP Crime Gun protocol has produced over 1,000 NIBIN 
hits which have assisted in over 3,000 investigations. Forty-three 
percent of the NIBIN hits generated through the program are cross-
jurisdictional. This alarming statistic highlights the need for a 
regional approach to the proper investigation of gun crimes. Central to 
an effective strategy to address gun crime is a robust information-
sharing environment where jurisdictions impacted by the same gun, 
criminal, or groups of criminals, can quickly develop, share, and act 
upon intelligence.
    The goal of an effective crime gun intelligence program is 
prevention. Departing from the traditional application of firearm 
forensics which is aimed at prosecution, crime gun intelligence is 
driven by the belief that this information can be used to identify and 
apprehend shooters before they shoot again. Timely intelligence allows 
investigators to disrupt the cycle of gun violence much faster than 
ever before, thereby saving future gun crime victims.
    The New Jersey model of crime gun intelligence also allows for the 
distribution of investigative leads through a cloud-based program which 
puts the power of crime gun intelligence into the hands of the 
detectives. Empowering the investigators with this information, sharing 
it across jurisdictional boundaries, and leveraging regional 
partnerships has proven to be critical components in the recipe for 
success.
    Thank you, Chairman King, and your subcommittee, for your attention 
to this subject of great importance to the continued public safety and 
welfare of our country. I look forward to answering any of your 
questions.

    Mr. King. Thank you, Superintendent, and even if your 
mother hadn't initiated, we still would have said good things 
about you.
    Mr. Fuentes. Thank you, sir.
    Mr. King. Maybe not as good, but you know, a serious thank 
you for your testimony. Our next witness is Boston Police 
Commissioner, Bill Evans. I had the pleasure of meeting and 
working with Commissioner Evans in the aftermath of the Boston 
Marathon bombing, where he and his predecessor, Commissioner 
Davis, they did a truly outstanding job and it is really a 
privilege to have you here today.
    In the interest, not just of bipartisanship, but also of 
New Yorkers showing unusual love for Boston and Massachusetts, 
I will ask Mr. Keating to formally introduce you.
    Representative Keating.
    Mr. Keating. Thank you, Mr. Chairman. I am sure that 
extends to the American League as well. I want to thank all of 
our witnesses for being here and for their leadership working 
with front-line responders who, as we sit here today, have 
mobilized to help meet the disaster needs in Texas and Florida, 
among other areas. Our prayers are with them and the people 
they are trying to assist.
    It is my pleasure to introduce Commissioner William Evans, 
and someone I have known and worked with before, even dating 
back to when I was a district attorney. Commissioner Evans was 
appointed as the city of Boston's 41st Police Commissioner, by 
Mayor Walsh, on January 17, 2014.
    Following in the footsteps of his oldest brother, former 
Commissioner Paul Evans, Commissioner Bill Evans has risen 
through the ranks of the Boston Police Department as one of its 
most capable officers.
    After joining the department as a patrol officer in 1982, 
he rose and held the position of Civil Service Captain, the 
highest civil service position in the department, commanded two 
districts, has been superintendent in charge of the Bureau of 
Field Services overseeing 1,800 patrol officers across the 
whole city, and has been responsible for strengthening 
community relationships. Something that we saw recently with 
the Free Speech Rally and the success and congratulations on 
the way your department handled that.
    Having received a Bachelors of Science Degree, among other 
degrees, he has an extensive background as an MPA from Anna 
Maria College, he is a graduate of the FBI National Academy, 
the Police Executive Research Forum Senior Management Institute 
for Police, the Center for Homeland Defense and Security, Naval 
Post Grad School, among many others.
    Over his 37 years with the police department, Commissioner 
Evans has been witness to some of the city's best and worst 
days, from a peaceful decampment of the Occupy Boston movement 
after 70 days of protest in Dewey Square in Boston, to the 
marathon bombing and the capture of Dzhokhar Tsarnaev.
    He has overseen the Department as it has brought crime 
rates to a 10-year low, in 2015, and has helped planned 
security for special events and partnered with State and 
Federal law enforcement successfully. A pillar of the 
commissioner's strategy that has made him so successful he is 
also a core part of suspicious activity reporting. That is, 
community engagement.
    Through open dialog, transparency, and ensuring that there 
is a constant interaction between his department and the people 
of Boston, Commissioner Evans has created the trust that is 
truly necessary for every police force to work effectively. I 
look forward, as my colleagues are, to hearing your testimony 
here today, and I thank you and your fellow witnesses for being 
here.
    I yield back.
    Mr. Evans. Thank you, Chairman.
    Mr. King. Mr. Evans, you are recognized.

  STATEMENT OF WILLIAM B. EVANS, POLICE COMMISSIONER, CITY OF 
             BOSTON, COMMONWEALTH OF MASSACHUSETTS

    Mr. Evans. OK. Chairman King, Ranking Member Rice, and 
Members of the committee, on behalf of Mayor Walsh and myself, 
I want to thank you for allowing me to participate in the 
hearing today. My full testimony has been submitted to you for 
the record, and with your permission, I would like to make a 
few opening remarks.
    As I reflect on the incidents of September 11, 2001, the 
importance of partnerships with law enforcement agencies, both 
public and private, in the public is only reaffirmed. In my 37 
years with the Boston Police Department, I have seen policing 
strategies evolve and can state with certainty that, given 
recent world events, police community relations have never been 
more important than they are today.
    As the police commissioner for the city, I continue to 
focus in on strengthening our relationship with the communities 
through the expansion of community policing efforts. Only with 
continued and persistent community engagement can we build 
trust, leading to the increased cooperation from the community, 
as an officer's role as a relation builder must be ingrained 
from the start.
    For a Boston police officer, community engagement and 
dialog starts in the academy. While historically police 
training was focused on military-style training, times have 
changed and so has policing curriculum. Knowing appropriately 
policing tactics is important today, but so is learning to 
positively and reflectively engage and interact with the 
community we serve.
    While in the academy, recruit officers interact with the 
community partners panel and perform a week of community 
service and they really do come out as community problem 
solvers. In addition to community interaction, the recruit 
curriculum focuses on procedural justice, bias-free policing, 
and de-escalation training. We have had many instances where we 
could have used deadly force, but the training has resulted in 
our officers not using that.
    After completing the academy, community engagement 
continues and encourages the community to see something and say 
something. Members of the department and community leaders 
participate in peace walks in the neighborhood most impacted by 
violence. During the summer months, the department deploys our 
Operation Hoodsie Cup to interact with the youth of the 
community and the children, again, to foster interaction with 
officers in the community.
    The department's relationship with the community is further 
enhanced by our strong social media presence. In the days 
following the Boston Marathon bombing in 2013, the department 
used social media to inform the public without inciting fear. 
Not only does the department coordinate with the community to 
solve crime, but coordination with our law enforcement and 
private partners is an integral part of our success.
    The department participates in Urban-Shield Boston, which 
is a multi-agency training exercise funded by the Department of 
Homeland Security, designed to enhance the skills and abilities 
of our region's first responders, as well as those responsible 
for coordinating and managing large events. I think we have 
seen after the Boston Marathon how effective that was in 
getting people to the hospital and decreasing the amounts of 
death. That was all a result of the training.
    All Boston police officers also receive training on 
suspicious activity and characteristics reporting, led by the 
members of the Boston Regional Intelligence Center, with 
materials provided for the National Suspicious Activity 
Reporting Initiative, the NSI. They are in this training, 
officers are given examples of suspicious activities and 
reminded of behaviors to look for major, look for suspicious 
activity at major public events.
    Department of Homeland Security analysis assigned to our 
BRIC are able to track suspicious activity reports, which 
allows them to identify trends and patterns, as well as share 
ideas with other offices.
    Because of this, we were able to break up two major 
operations on this sharing where we had two individuals travel 
cross-country who wanted to shoot up the World Pokemon 
Championship. Through our partnerships with private and public, 
we were able to catch them and get two high-powered rifles 
before they shot that up.
    Just recently we were able to intercept an MS-13 gang and 
take out a homicide suspect through the sharing of information 
with our partners. The success of the partners is directly 
attributed to the increased trust with the community through 
relationship building, information sharing, and increased 
awareness in training.
    As Congressman Keating says, we have been able to reduce 
crime in our city by 38 percent over the last 10 years and we 
decreased the amount of arrests by 51 percent. So, we are not 
doing it by locking people up, we are doing it by lifting 
people up.
    In closing, from Occupy Boston to our Boston sports team's 
victories parades to our free speech rally a few weeks back, 
without the community support and assistance we would not have 
been able to keep each of these events controlled and violence 
free.
    Police need the trust and faith of the community they serve 
to effectively prevent, respond, and solve crimes. That trust 
is built through the tireless efforts of each officer, from the 
recruit officer to the police commissioner, to engage people in 
the community one conversation at a time.
    Thank you again for the opportunity to speak today. I am 
happy to answer any questions the committee may have.
    [The prepared statement of Mr. Evans follows:]
                 Prepared Statement of William B. Evans
                           September 13, 2017
    On behalf of Mayor Martin Walsh and myself, I want to thank the 
committee for asking me to participate in this hearing today. As I 
reflect on the incidents of September 11, 2001, the importance of 
partnerships, with law enforcement agencies, public and private 
partners, and the public, is only reaffirmed.
    In my 37 years with the Boston Police Department, I have seen 
policing strategies evolve significantly and can state with certainty 
given recent world events that police-community relations have never 
been more important than they are today. To that end, as the police 
commissioner for the City of Boston, I continue to focus on 
strengthening our relationship with the community through the expansion 
of community policing efforts, including proactive prevention and 
diversion for at-risk youth and their families, partnerships and 
collaborations with service providers, non-profits, and community-based 
programs, and expansive participation in neighborhood activities. Only 
through continued and persistent engagement with our community can 
police build trust, leading to increased cooperation from the 
community.
    It is imperative that an officer's role as a relationship-builder 
be ingrained from the start. For a Boston police officer, community 
engagement and dialogue starts in the Boston Police Academy. While 
historically police training was focused on military-style training, 
times have changed and so has the policing curriculum. Knowing 
appropriate policing tactics is an important part of police training, 
but so is learning to positively and respectfully engage and interact 
with the community we serve. To that end, while in the Academy, recruit 
officers interact with a community partners' panel, perform a full week 
of community service projects, and complete community policing case 
studies. As part of the community service project, recruit officers are 
sent out into the community to identify and address a current community 
concern. At the conclusion of the project, recruit officers report out 
to the Command Staff on the problem-solving process, including a 
description of the problem, their recommended solution, and their 
overall experience with the community. I am a firm believer that 
officers are community problem-solvers at all levels, and these types 
of interactions serve as the foundation for a well-rounded and 
effective police officer.
    In addition to the community interaction, the recruit curriculum 
now includes significant procedural justice and bias-free policing 
training. Ensuring that officers are aware of their inherent biases, 
and how those biases may affect their ability to do their job only 
further enhances their relationship with the community. In addition to 
the recruit training, bias-free policing has been stressed to all 
members of the Department. In July 2015, the Department issued its 
Bias-Free Policing policy and required all officers to complete an e-
learning course as part of in-service training. The policy was issued 
to clarify the circumstances in which officers can consider personal 
characteristics, such as race and gender, when making enforcement 
decisions and to identify on-going efforts to ensure that biased 
policing does not occur within the Department. In addition to stressing 
community engagement and non-biased policing, Departmental training 
also focuses on de-escalation tactics. I could give countless examples 
of times when a Boston police officer would have been justified in 
using deadly force, but given the situation determined deadly force was 
not necessary. Boston police officers are instead trained to use de-
escalation techniques and less lethal, or non lethal, force when 
confronted with the most difficult scenarios. The Department's focus on 
de-escalation has only served to increase the public's trust in the 
Department, and has been a key component to building confidence with 
our community.
    After completing the Academy, Boston police officers continue to 
engage the community once out on the street, which encourages the 
community to ``See Something, Say Something.'' Members of the 
Department participate in neighborhood Peace Walks in the neighborhoods 
most impacted by violence. In addition to police officers, these walks 
include members of the clergy and community partners, and provide an 
opportunity for citizens to personally interact with the officers 
assigned to their community. Similarly, each of the Department's 11 
neighborhood stations run community outreach and youth activities 
through their community service offices including the Thanksgiving 
Turkey Giveaway, the Senior Citizens Ball, sports leagues, arts 
programs, youth/police dialogues, community service projects, 
neighborhood block parties, junior police academy, neighborhood 
``flashlight'' walks, ``Coffee with a Cop,'' safety briefings, 
neighborhood watch, and collaborations with local non-profit and faith-
based partners. During the summer months, the Department deploys 
``Operation Hoodsie Cup'' into our neighborhoods. Through the use of an 
ice cream truck, officers deliver free ice cream to children and 
community residents, again fostering one-on-one interaction with 
officers and the community.
    Additionally, the Department has many programs focused on youth 
engagement. The Boston Police Teen Academy helps students connect with 
officers in their community, while also building character and learning 
life skills, all with a major focus on conflict resolution. 
Participants earn minimum wages for their program attendance and 
receive gift cards provided by local businesses to help with the 
purchase of back-to-school clothes and supplies. Through Operation 
Homefront, a collaboration with the School Police Unit, the 
Massachusetts Bay Transportation Authority (MBTA) Police, School 
Safety, Social Service Agencies, and Faith-Based Organizations, the 
Department is are able to further the idea that family is the first 
line of defense against gang activity and truancy. With information 
provided by our local schools regarding concerning behaviors that may 
affect school safety, officers and clergy members work together to 
conduct home visits for at risk youth. This collaboration provides a 
crucial link to parents in our neighborhoods and offers various 
resources for parents, students, and teachers to utilize when 
preventing problems for students in the public school system. Officers 
also participate in P.A.L. to PALS, a monthly visit to local Boys and 
Girls Clubs in Boston. The visits include a dialogue on the officers' 
assignment followed by a physical activity, such as officers playing 
basketball with the children. Similarly, the Department partners with 
the Boy Scouts of America to provide young men and women who have an 
interest in the field of law enforcement with career orientation 
experiences, leadership opportunities, and community service 
activities. The Boston Police Academy also hosts an annual ``Big for a 
Day'' in partnership with the Big Sister's Association. The program 
matches ``little sisters'' between the ages of 7 and 15 with women in 
the Department. Over the course of the day, Department personnel and 
the ``little sisters'' participate in a variety of police-related 
activities. Earlier this year the Department unveiled the ``Bigs in 
Blue'' program, which connects Boston youth with current police 
officers (Bigs) to build strong, trusting, lasting relationships 
between law enforcement, the city's youth, and their families. Also, in 
2014, Mayor Walsh established Operation Exit--a program which places 
at-risk residents, including those with a criminal background, into a 
trade apprenticeship program. Through career readiness and occupational 
skills training, the program provides hands-on learning experiences 
with peer-to-peer mentorship to prepare participants for successful 
careers. This program has proven to be enormously successful, as the 
vast majority of those who have completed the program have left their 
criminal pasts behind, and are now thriving, productive members of our 
community. The Department's participation in these youth-focused 
events, as well as others throughout the city, further helps to break 
down walls between youth and police, support our community policing 
efforts and foster an on-going dialogue with our officers.
    In addition to the extensive interactive community engagement, in 
August 2015, I created the Social Justice Task Force. The Task Force is 
comprised of command staff members and various community leaders, 
advocates, educators, and members of the clergy, all of whom meet on a 
periodic basis to discuss current issues facing the Department and the 
community. The goal of the Task Force is to engage community leaders 
and receive feedback on various Department initiatives and plans, 
develop solutions to current concerns, and ensure the right information 
is getting out to the community. The Task Force has provided feedback 
on recruitment efforts and the hiring and promotion process, re-
instituting the Cadet program, and the Body-Worn Camera Pilot Program, 
to name just a few topics. Members of the Task Force have assisted with 
summer violence prevention efforts, encouraged the community to 
participate in Peace Walks, and participated in meetings in our 
neighborhoods to discuss the public's concerns and further improve our 
relationships with the community. Outside of the periodic meetings, I 
personally call on these trusted partners to seek guidance and feedback 
on emerging issues and concerns.
    The Department's relationship with the community is further 
strengthened by our strong social media presence. In the days following 
the Boston Marathon Bombing in 2013, the Department used social media 
to inform the public without inciting fear, to instruct the residents 
on what to do, and to instill a feeling of safety within the community. 
This method of communication proved invaluable during such a difficult 
time in Boston. Since 2014 the Department has seen a steady increase in 
the number of social media followers, and currently has 496,000 Twitter 
followers, 190,000 Facebook followers (and has received 200,000 
``likes''), 21,500 Instagram followers and receives an average of 2.46 
million page views per year on the Department's website, BPDNews.com. 
Social media has allowed me to increase transparency and information 
sharing by posting the results of internal affairs investigations, 
seeking the identity of persons of interest and suspects in criminal 
activity, and seeking the community's assistance in locating missing 
persons.
    While calling 9-1-1 remains the most commonly-used means to share 
information with the Department, our constant physical presence in the 
community, as well as our on-line presence, affords members of the 
public with additional avenues to share information with police 
officers. To that end, the Department also operates an anonymous tip 
line that allows people to confidentially send information, either by 
phone or text, directly to the Department if they observe a crime or 
other suspicious activity.
    Not only does the Department coordinate with the community to solve 
crime, but coordination with our law enforcement and private partners 
is an integral part of our success. The Department participates in 
Urban Shield Boston--a multi-agency training exercise funded by the 
Department of Homeland Security designed to enhance the skills and 
abilities of our region's first responders, as well as those 
responsible for coordinating and managing large-scale incidents, and 
other members of the community. This exercise identifies and stretches 
regional resources to their limits and strengthens incident command 
systems, while expanding regional collaboration and building 
relationships. Similarly, in June 2016, the Department, in 
collaboration with the Boston Red Sox, the Department of Homeland 
Security, and the United States Army Armament Research, Development, 
and Engineering Center, conducted a multijurisdictional 
counterterrorism exercise at Fenway Park. The objective of the training 
exercise was to prepare law enforcement officials, first responders, 
and Fenway Park personnel in emergency procedures and protocols in the 
event of a mass emergency. This exercise was the first of its kind 
across the Nation and included various threats (i.e., suicide vests, 
drones, and active shooters), as well as including a test of various 
security technologies (i.e., vapor dogs, anti-drone technology, and 
remote precision robotics).
    All officers also receive training on suspicious activity and 
characteristics reporting, led by members of the Boston Regional 
Intelligence Center (BRIC), the 2013 Fusion Center of the Year 
recipient. During this training, officers are given examples of 
suspicious activities, including weapons collection, surveillance, 
recruiting and testing or probing of security, and are reminded of 
behaviors to look for during major public events. Officers have 
multiple options for reporting suspicious activity, including in a 
police report or by contacting the BRIC directly. Analysts assigned to 
the BRIC can provide additional information when such a report is 
received, through open-source research and information sharing with 
other law enforcement agencies. Additionally, Homeland Security 
Analysts assigned to the BRIC are able to track the event as a 
Suspicious Activity Report, which enables them to identify trends and 
patterns, as well as sharing information with other law enforcement 
agencies.
    In addition to training with our partners, the Department has 
developed a comprehensive information-sharing partnership with our 
public and private-sector stakeholders called BRIC Shield, based in 
part on the NYPD Shield program. There are more than 1,000 stakeholders 
from the private sector and non-governmental organizations across the 
Metro Boston Region registered to receive and share information through 
BRIC Shield for public safety and homeland security purposes. The 
information shared includes the latest crime bulletins, pattern and 
trend analysis of criminal activity in the region, international, 
National, and regional analysis of homeland security incidents and 
threats as they relate to the region, real-time alerts and situational 
awareness updates. The BRIC also houses the Department's Real-Time 
Crime Center, which allows analysts to monitor events in real time and 
provide officers with timely information, often as the incident is 
unfolding.
    To further ensure the continuous flow of information, the 
Department has officers assigned to the National Network of Fusion 
Centers, the Joint Terrorism Task Force, the International Association 
of Chiefs of Police Committee on Terrorism, the Major City Chiefs 
Intelligence Commanders Group, and the National Operations Center. The 
Department's representation within these organizations and committees 
further supports the continuous flow of information among our law 
enforcement partners. The Department also works with its local, 
National, and international partners to provide training and ensure the 
safety of those in these communities. For example, the Department 
partners with local hospitals in the ``Run, Hide, Fight'' training 
exercise to prepare employees in the event of an active-shooter 
situation, and has provided active-shooter training to countless 
schools, businesses, and agencies.
    Information sharing with public and private partners has served as 
an invaluable tool in combating crime in our city. For example, in 
August 2015 the BRIC received an email from security personnel at a 
local convention center regarding a possible threat made on social 
media to the Pokemon World Championship. The information was evaluated 
by the BRIC and analysts were able to identify the suspects and send 
out a request for information to Boston area hotels. Upon the suspects' 
arrival at the convention, the two individuals were stopped at the door 
by law enforcement and a search warrant was later executed on their 
vehicle. The men were taken into custody after officers found assault 
weapons and ammunition in the trunk of their car. Both men ultimately 
plead guilty and were sentenced to 2 years in prison.
    Similarly, through collaboration with multiple agencies across the 
country to understand the dynamics of MS-13, a BRIC analyst identified 
a possible connection between a MS-13 member wanted in a series of 
assaults and an individual wanted for questioning in a New Jersey 
homicide investigation. Working with its network of partners across the 
United States to share criminal intelligence, along with an 
investigation by Boston Police Youth Violence Strike Force officers, 
the Department confirmed that these suspects were in fact the same 
person and coordinated with representatives from the New Jersey 
Prosecutors Office to conduct a series of interviews with the suspect 
in Boston. This information and investigation ultimately resulted in 
the arrest of the suspect following his admitted involvement in the New 
Jersey homicide.
    The success of the Department is directly attributable to increased 
trust with the community through relationship building, information 
sharing, and increased awareness and training. The on-going dialogue 
with our community and law enforcement partners, coupled with the 
targeted and strategic deployment of resources and an increase in 
training, has led to a steady decrease in Part 1 Crime over the last 10 
years, with a 38% decrease from 2007 to 2016. Similarly, arrests have 
seen a 51% decrease during the same time period. This reduction clearly 
demonstrates that we are not arresting our way out of a problem, but 
instead focusing our efforts where they need to be--community 
engagement and strategic deployment. Our positive relationship with the 
community has also helped the Department handle our many large-scale 
events of the recent past. From Occupy Boston to our Boston sports 
teams' victory parades to the Free Speech Rally a few weeks back--
without the community's support and assistance we would not have been 
able to keep each of these events controlled and violence-free. Police 
need the trust and faith of the community they serve to effectively 
prevent, respond to, and solve crimes. That trust is built through the 
tireless efforts of each officer, from the recruit officer to the 
Police Commissioner, to engage people in the community: One 
conversation at a time.

    Mr. King. Thank you, Commissioner. Obviously we are all 
proud that you are able to secure those victory parades. We 
just wish you didn't have as many victory parades, but maybe we 
will take care of that in the future. Thank you, Commissioner 
Evans, for your testimony.
    Our final witness is, Mr. Joseph M. Flynn, the deputy 
director of Northern Virginia Regional Intelligence Center and 
lieutenant with the Fairfax Country Police Department as well 
as the assistant commander of the Criminal Intelligence 
Division of the Fairfax County Police Department.
    Lieutenant Flynn has a background in incident command 
management and currently assists as an instructor for crisis 
intervention training for first responders, interacting with 
individuals in mental health crisis and de-escalation 
techniques.
    He has served in the U.S. Army Military Police Corp for the 
military district of Washington where he was awarded Soldier of 
the Year for 1989. Lieutenant Flynn has received numerous 
awards from the Fairfax County government and from Prince 
William County as he served as a volunteer paramedic.
    Lieutenant Flynn regularly volunteers at local youth sports 
groups and community boards. Lieutenant Flynn, thank you for 
being here today and you are recognized for your testimony.

    STATEMENT OF JOSEPH M. FLYNN, DEPUTY DIRECTOR, NORTHERN 
             VIRGINIA REGIONAL INTELLIGENCE CENTER

    Mr. Flynn. Chairman King, Ranking Member Rice, and Members 
of the subcommittee, I am honored that I have been asked to 
represent the Northern Virginia Regional Intelligence Center as 
the NVRIC. I thank you for the opportunity to discuss the role 
and challenges faced by my regional fusion center and the 
remaining 78 Department of Homeland Security-recognized fusion 
centers in the United States and territories.
    The See Something, Send Something is a mobile application 
that has been used by the public as well as professionals to 
photograph and text criminal activity, or suspicious activity, 
to the nearest fusion centers.
    Once received, fusion center analysts must review and vet 
the information since activities reported by the public don't 
always rise to the level of criminality or the SAR standards. 
If the reported activity rises to the level of an SAR or crime, 
the analyst works it up as much as possible and then sends it 
to a field agent to investigate for investigative follow-up.
    The agents then report their findings back to the centers 
for analytical reporting. In Virginia, the Suspicious Activity 
Reports, or SARs, come in a variety of sources such as the 
public, a terrorism hotline, cold fusion via the Virginia 
Fusion Center's website, See Something Send Something mobile 
application, law enforcement sources such a State, local, 
Federal, and military police, as well as first responders from 
across Virginia who have attended the Fusion Liaison Officer or 
Suspicious Activity Reporting training.
    The reporting has assisted law enforcement to identify 
subjects that have begun to support terrorist activities in the 
Commonwealth of Virginia, or individuals in criminal activities 
that law enforcement hadn't known about.
    The NVRIC unfortunately doesn't have the same technological 
abilities to interact with first responder groups and establish 
easy SAR reporting methods as those at the Virginia Fusion 
Center. The majority of SARs sent to NVRIC are received through 
e-mail or telephone calls by partner agencies.
    Through the dedicated work of the analysts of the NVRIC, 
they have provided on-site SAR training to local, Federal, and 
military police patrol officers in Northern Virginia and soon 
will expand that training to the fire and EMS professionals 
that serve Northern Virginia.
    We have also provided training to the local school resource 
officers of Northern Virginia, specifically Fairfax County and 
Arlington County. During the tracking period of SARs by the 
NVRIC from October 2015 to September 2016, we have, on record, 
292 SARs submitted.
    As the NVRIC began to advance their SAR training and Fusion 
Liaison Officer Training Program aggressively, from October 
2016 to just this July 2017, there have been over 300 SARs 
reported, showing an increase of 13 percent of reporting 
compared to last year.
    Statements by first responders of the training have been 
common-themed. They didn't know the indicators that could be 
used in a SAR. They didn't know who to contact. They don't 
receive feedback from Fusion Centers of their Federal 
Government on the information they submit, hence they have 
stopped submitting SARs.
    The analysts can attest that, because of the training that 
they are starting to provide, they are receiving SARs from 
agencies and first responders that have never been in contact 
with them in the past.
    I am convinced that the on-site SAR training and developing 
a relationship between the Fusion Center analysts and the first 
responders will only enhance the SAR system and should produce 
an increase in SAR reporting.
    Analysts have expressed that the diverse and simple methods 
of SAR reporting are well-received. Improvements are still 
needed in many areas of SAR reporting. Timeliness of reporting 
by first responders or having the report sent to the NVRIC can 
be days or even weeks after the initial contact where the 
observation has been observed.
    Technology varies from center to center. DHS and other 
Federal law enforcement groups are constantly developing new 
applications that have a minimal cost or easy available 
training for first responders, but the private sector provides 
incredible applications that draw upon multiple data sources 
that can be molded into the center's work flows and record 
management systems.
    But many of these programs have costs that are not 
attainable except by the largest of agencies. Grant funding and 
State and local government financial investments are getting 
reduced, if not completely eliminated, making it difficult to 
maintain or support the best technology available to help 
manage SAR reports and secure the data.
    Investing funds into uniform Fusion Center technology 
allows for that technology and intelligence to be accessible by 
numerous law enforcement agencies. Smaller agencies will be 
able to invest their budgets into operational materials needed 
and the Fusion Center could be the regional or State-wide data 
management and intelligence provider.
    The Suspicious Activity Reporting system will only be 
successful when the first responder community commits to the 
success of the program. Just attending training for the sake of 
meeting a training requirement will not produce successful 
results and strong partnerships.
    This spans from the officer or the firefighter working the 
street to the executives and our political leaders that see the 
value in trusted information sharing and the Suspicious 
Activity Reporting program.
    With your support, you will properly help fund DHS and the 
NSI program. State and local first responders need uniform 
training, data systems, and documented best practices. With DHS 
and fusion centers, such as the Northern Virginia Regional 
Intelligence Center, partnering to train first responders, 
executives, political leaders and our citizens will continually 
progress forward, finding new and better ways to keep America 
safe.
    I would like to take a moment to recognize and say thank 
you to all of the law enforcement, firefighters, EMTs, 
emergency managers, hospital staff, and our military, who not 
only serve in Virginia in Fairfax County, but throughout our 
country and the world. I am blessed to work with the most 
dedicated analysts and law enforcement personnel in Fairfax 
County, Northern Virginia, and the National Capitol Region. I 
thank you for allowing me this opportunity to testify, and I 
look forward to your questions.
    [The prepared statement of Mr. Flynn follows:]
                 Prepared Statement of Joseph M. Flynn
                           September 13, 2017
    Chairman King, Ranking Member Rice, and Members of the 
subcommittee, I am honored that I have been asked to represent the 
Northern Virginia Regional Intelligence Center (NVRIC). I thank you for 
the opportunity to discuss the role and challenges faced by my regional 
fusion center and in a way represent the remaining 78 Department of 
Homeland Security (DHS) recognized fusion centers in the United States 
and territories.
    Since assuming my position 13 months ago, I have charged directly 
into the world of law enforcement intelligence and have used my 
leadership and interpersonal skills to advance the role of the fusion 
centers in the National Capital Region in securing our communities. The 
key to valuable, timely, and relevant intelligence is based on 
information sharing and ensuring it is properly processed. The National 
Situation Awareness Reporting (SAR) Initiative (NSI), led by the 
Department of Homeland Security, has provided the framework needed by 
first responders, not just law enforcement, throughout the country. 
What I hope to impress upon you today is a comparison of my initial 
impression of the NSI program and what I have learned the 1 year since 
I have been in my current position.
    The Northern Virginia Regional Intelligence Center has been in 
existence since 2004. In 2010, the Department of Homeland Security 
(DHS) officially recognized the NVRIC as a regional fusion center 
within the Commonwealth of Virginia. The NVRIC supports the 
jurisdictions of Fairfax County, Arlington County, Alexandria City, 
Prince William County, Loudoun County, every smaller city or town, 
Federal facility and military installation within those geographic 
borders. Strengthening our relationships with our National Capital 
Region fusion centers, Maryland Coordination Analysis Center (MCAC), 
Washington Regional Threat Analysis Center (WRTAC), and the Virginia 
Fusion Center (VFC) has been a priority. Fostering strong relationships 
among the numerous law enforcement agencies, fire/EMS services, 
private-sector businesses, transportation leaders, emergency managers, 
and our political leaders have led in a relatively short time period to 
improving our relevance in the area while still protecting the civil 
liberties of our citizens. Another unique feature of the NVRIC is that 
we have detectives assigned to the center that have security 
clearances. They have the ability to work with numerous Federal law 
enforcement groups, to include the Joint Terrorism Task Force.
    Early on in my assignment, I recognized that our center had been 
lacking in some programs, to include participation in the Homeland 
Security Information Network (HSIN) and in SAR reporting. As of January 
1, 2017, we are now leading members in the HSIN system and have 
championed the SAR program in Northern Virginia. We conduct monthly in-
person meetings for analysts, detectives, and commanders where all 
participants are instructed to bring something to the table. That all 
agencies, no matter how small or isolated they feel in Northern 
Virginia, have value to help prevent crime and terrorism in Northern 
Virginia. The outreach of NVRIC leadership and staff has resulted in 
dramatic increase of participation by Northern Virginia law 
enforcement. For example, military police detectives now talk about 
criminal cases involving military personnel as victims and the regional 
meetings with local law enforcement have led to identifying the 
suspects from other States. Trust and open communication has been the 
key to the continuing success of the NVRIC and bringing multiple 
disciplines together to ensure our community remains safe from 
terrorism.
    The strongest relationship the NVRIC shares is with our State 
fusion center partner, the Virginia Fusion Center (VFC). The VFC is 
managed by the Virginia State Police in Richmond, VA. The VFC and NVRIC 
communicate on a regular basis to improve information sharing and to 
ensure the centers complement each other. We cannot compete with each 
other or the result could be a loss of trust by our first responder 
community and each other. We have established clear roles of 
responsibilities for each center's area of responsibility. Should a 
center need assistance with an event or a request for information, the 
VFC and NVRIC can rely on each other to accomplish the mission. The 
relationship is so strong that the VFC has placed a lead analyst in the 
NVRIC to improve and coordinate information sharing.
    The VFC has the primary role of managing the ``See Something-Send 
Something'' program. See Something-Send Something is a mobile 
application that can be used by the public as well as professionals to 
photograph and text criminal activity or suspicious activity to the 
nearest fusion centers (assuming the geolocation services are enabled 
on the user's device). In Virginia, that is managed by the VFC. Once 
received, VFC staff must review and vet the information since 
activities reported by the public don't always rise to the level of 
criminality or the SAR standards. If the reported activity rises to the 
level of a SAR or crime, the analysts work it up as much as possible 
and then send to the VFC's field agents for investigative follow-up. 
The agents then report their findings back to the VFC for analytical 
reporting. If the See Something-Send Something report is identified 
coming from Northern Virginia, the VFC forwards the report to the NVRIC 
to begin the investigative process. The VFC manages a web page that 
allows citizens to report See Something-Send Something. The NVRIC does 
not maintain a stand-alone web page.
    Suspicious Activity Reports (SARs) come in from a variety of 
sources such as the public, terrorism hotline, ``cold fusion'' via the 
VFC website, See Something-Send Something Mobile App, law enforcement 
sources such as State, local, Federal, and military police as well as 
first responders from across Virginia who have attended Fusion Liaison 
Officer or Suspicious Activity Reporting training. The reporting has 
assisted law enforcement to identify subjects that have begun to 
support terrorist activities in the Commonwealth of Virginia or 
individuals in criminal activities that law enforcement hadn't known 
about.
    The key to the success of these programs is the analyst working 
closely with their law enforcement counterpart. A highly-trained 
analyst can process the limited information provided and quickly assess 
how the information is made actionable or not. Citizens filing 
anonymous reports of each other does occur, but the trained analyst 
must quickly assess if the claim made is real or without grounds. 
Information that does not reach a level of reasonable suspicion is 
purged. From the training received annually from the Bureau of Justice 
on protecting the civil rights of citizens and 28 CFR, fusion centers 
adhere to the guidelines set not to retain that information.
    The NVRIC unfortunately doesn't have the same technological 
abilities to interact with first responder groups and establish easy 
SAR reporting methods as those of the VFC. The majority of SARs sent to 
the NVRIC are received through email or telephone calls from partner 
agencies. Through the dedicated work of analysts of the NVRIC, 3 to 4 
days a week and occasionally 2 or 3 times a day, they have provided on-
site SAR training to local, Federal, and military police patrol 
officers in Northern Virginia. The analysts have met with school 
resource officers prior to the opening of the 2017 school year and 
taught the fundamentals of SARs and how to send the information to the 
center. The fire analyst at the NVRIC is developing a SAR presentation 
for fire departments in Northern Virginia to help fire and EMS 
personnel understand how important they are to the fight against 
terrorism and how to report observed suspicious events.
    Up until a week ago, SAR training provided by the NSI had not been 
present in the Washington, DC. area for a few years. The NVRIC staff 
assessed quickly the need to train first responders and provide 
examples to them of law enforcement field contacts made in the past of 
subjects that may have been identified as terrorist sympathizers. But 
now the NSI, the four National Capital Region fusion centers and the 
Joint Base Ft. Myer-Henderson Hall Police will be hosting a 3-day 
course to agencies throughout the region and country on Suspicious 
Activity Reporting. The leadership of the NSI have indicated they are 
more committed now to building the partnerships between DHS and State 
and local law enforcement.
    During the tracking period of SARs by the NVRIC from October 2015 
to September 2016, there were 292 SARs submitted. As the NVRIC began to 
advance the SAR training and Fusion Liaison Officer training program, 
from October 2016 to July 2017, there have been 331 SARs submitted, a 
13 percent increase of SAR reporting compared to last year. It is 
difficult to assess if the increase in SAR reporting over the time 
period can be attributed to the on-site training provided by NVRIC 
analysts. Statements made by first responders at the training have been 
common theme. They didn't know the indicators that can be used in a 
SAR. They didn't know who to contact. They don't receive feedback from 
fusion centers or the Federal Government on the information they 
submit, hence they have stopped submitting SARs. The analysts can 
attest that because of the training, they are receiving SARs from 
agencies and first responders they have never been in contact with in 
the past. I am convinced that on-site SAR training and developing a 
relationship between the fusion center analysts and first responders 
will only enhance the SAR system and should produce an increase in SAR 
reporting.
    Analysts have expressed that the diverse and simple methods of SAR 
reporting are well-received. Improvements are still needed in many 
areas of SAR reporting. Timeliness of reporting by first responders or 
having the report sent to the NVRIC can be days or even weeks after the 
initial contact or observation had been observed. Technology varies 
from center to center or State to State. DHS and other Federal law 
enforcement groups, including the Law Enforcement Enterprise Portal 
(LEEP), are constantly developing new programs or listening to their 
consumers as to what they need to function successfully with programs 
that have a minimal cost or easy available training. The private sector 
(commercial market) provides incredible applications that draw upon 
multiple data sources that can be molded into the center's workflows 
and record management systems. Many of these programs have costs that 
are not attainable except by the largest of agencies. Grant funding and 
State and local government financial investments are getting reduced, 
if not completely terminated, yearly making it difficult to maintain or 
support the best technology available to help manage SAR reports and 
secure the data. Investing funds into a fusion center allows for that 
technology to be accessible by numerous law enforcement agencies 
submitting requests for information (RFI). Smaller agencies will be 
able to invest their budgets into operational materials needed and the 
fusion center could be the regional or State-wide data management and 
intelligence provider.
    Post-September 11, 2001, the National Fusion Center system was 
developed to improve information sharing. Since I have assumed my 
position as deputy director, I have spoken with anyone and everyone 
that is willing to listen and learn. I have met with police chiefs that 
didn't know there was a regional intelligence center or find no value 
in the fusion center system. Fire chiefs claiming no one wants to share 
with them important information. Emergency managers stating they need 
intelligence, but don't receive anything from their law enforcement 
partners to help them prepare for possible activation. School system 
administrators advise they are receiving unconfirmed social media 
reports from their students or parents of imminent unsubstantiated 
school attacks and need assistance assessing the threat.
    The role of the fusion center is incredibly important in a time 
when electronic messaging can be the difference between an evacuation 
or someone losing their life. The fusion center has to operate in a 
secure environment. The fusion center has to be able to process 
multitudes of data and information, usually in a short period of time. 
The fusion center can then provide verifiable, relevant, and timely 
intelligence to our leaders so they can make a well-informed decision. 
The fusion center should be considered the primary communication point 
to the Federal Bureau of Investigation (FBI) and Department of Homeland 
Security for State and local law enforcement, especially regarding 
Suspicious Activity Reporting.
    The Suspicious Activity Reporting system will only be successful 
when the first responder community commits to the success of the 
program. Just attending training for the sake of meeting a training 
requirement will not produce successful results and strong 
partnerships. This spans from the officer or fire fighter working the 
street to the executives and political leaders that see the value in 
trusted information sharing and the Suspicious Activity Reporting 
program. With your support, you will help properly fund DHS and NSI 
program. State and local first responders need uniformed training and 
best practices. With DHS and fusion centers, such as the Northern 
Virginia Regional Intelligence Center, partnering to train first 
responders, executives, political leaders and our citizens, we will 
continually progress forward finding new and better ways to keep 
America safe.
    I would like to take a moment to recognize and say thank you to all 
of the law enforcement, fire fighters, EMT's, emergency managers, 
hospital staff, and our military that not only serve in Virginia, but 
throughout our country. I have worked those long drawn-out overnight 
shifts. Received the ridicule or praise for doing a job I love. Since 
September 11, 2001 and every day after that as I flew over the Pentagon 
as a crew member of Fairfax 1, I saw and smelled the destruction, I 
have remained determined to keep my community, and now as a member of 
the NVRIC, my country as safe as possible. Thank you committee for 
allowing me the opportunity to testify.

    Mr. King. Thank you very much, Mr. Flynn. One thing, you 
know, a constant theme through your testimony is for this 
system to work, of reporting something, you know, when the 
average citizen sees something that requires cooperation with 
all levels of government.
    Not to open up an old wound, but I remember after the 
Boston Marathon bombing, we had a hearing, Commissioner Davis 
was here, and there were questions about the extent of 
cooperation between the FBI and the Boston police. Has that 
situation improved and been rectified?
    Mr. Evans. Again, Congressman, I have been here almost 4 
years, and I have had nothing but outstanding cooperation 
between the FBI, State, and all our agencies. To our Boston 
Regional Intelligence we all, we have daily calls with them. 
Hank Shaw, who is the SAC in the Boston area, anytime there is 
a major event, the dialog is great. Whether it was recently the 
Free Speech, or we had tall ships come to Boston, you know, the 
cooperation has been excellent.
    So, you know, I don't know how it was before that, 
Congressman, but since I have been in this position, you know, 
the information sharing, the partnership, there has been no 
issues whatsoever.
    Mr. King. Mr. Fuentes, Mr. Flynn, is that your----
    Mr. Fuentes. Sure, I think most recently, or at least in 
the last few years, I think the appointment of Kerry Sleeper, 
at a very high-ranking level of the FBI, he was a State and 
local. He was a State police superintendent up in New England. 
I can tell you, having listened to all the events occurring 
around the world over the last 4 years, I mean, last several 
years, domestically and internationally, that dialog opens up 
almost immediately with the FBI with briefings.
    There are very few of us at the State and local level who 
have access to those telephone conversations, who aren't aware 
of the information almost as it is occurring, and what the FBI 
is doing about it. That naturally feeds through the National 
Fusion Center Network, and a network of 78 fusion centers, to 
be able to push that information out to all levels of law 
enforcement within their States.
    So, I couldn't be happier with the ability of the FBI to 
reach out to State and local now and get that information out.
    Mr. King. Mr. Flynn.
    Mr. Flynn. Sir, I have been in my position for 13 months, 
and in that time we have developed a very strong relationship 
with the Washington Field Office here in the District of 
Columbia. As they rotate and move personnel, we are always in 
contact with the next person. They are helping bridge those 
gaps for us, so we can continue our working relationships.
    They have helped us with our security clearance issues. So 
now, I can have detectives, and so forth, actually help with 
the JTTF group, and I have more of them as a resource to help 
them on this side of the river, should anything happen in the 
Northern Virginia area.
    The best example I can tell you, sir, is during the 
shooting in Alexandria, in regards to Representative Scalise 
was, it was the JTTF that actually called us to say, ``Here is 
information that may be helpful to you, if you could start 
working it on your end.'' So we didn't have to get in the way, 
or bother anybody. They were actually trusting us, to come to 
us, and we fulfilled that obligation for them.
    So, to me, that is as an example that they are actually 
wanting to work with us. They now believe in what we do and 
that we are here to work together for a common cause.
    Mr. King. Mr. Evans, in your testimony, you mentioned an 
incident where an MS-13 accused killer was apprehended because 
of this system. In my own district, we have had 17 murders in 
roughly the last year-and-a-half, committed by MS-13. In fact, 
today is the 1-year anniversary of two young girls who were 
actually butchered to death with machetes by MS-13.
    So, obviously, this serves a real purpose, as far as going 
beyond terrorism. The only concern I have, the question I would 
have to you is, does this in any way deter you for your anti-
terrorist activities, or your anti-terrorism programs, by going 
off into, you know, day-to-day crime, as violent as it may be?
    Mr. Evans. It doesn't. It doesn't. I mean, they work 
together. You know, every day we do daily calls with all our 
partners, both all the local regional departments, as well as 
State and Federal. But, you know, to us, last year we had five 
murders related to the MS-13, 18th Street. But it coexists, for 
the most part, Congressman. It doesn't take us from our 
mission.
    Mr. King. Right.
    Mr. Evans. You know, we have an officer in the NARC here in 
Washington, permanently assigned here. So, we continually focus 
on local crime, as well as international events. So, you know, 
it really hasn't taken us away from the focus.
    Like I said, recently, you know, we were able to get two 
July 4th events, the Free Speech, the tall ships. We have had 
quite a lot. We had the Super Bowl parade in February. You 
know, we have had a lot of major events. We have had a focus on 
that threat of terrorism. But focus on the local crime, it 
hasn't taken away one bit of our mission to keep not only the 
city safe, but the region safe.
    Mr. King. Thank you. My final question is to Mr. Taylor. 
You said in your testimony, you would like NSI to do more to 
engage the private sector. Do you have any thoughts or ideas as 
to how that can be done, to get the private sector more 
involved?
    Mr. Taylor. Thank you, Chairman. I believe you start with a 
lot of this starts at the grass-root level and the local level, 
with the State and local partners that are there. They know the 
communities that are present that have access to certain data. 
They are in certain areas that, potentially could yield 
reporting of suspicious activity. So starting at the local 
level, I think, is invaluable.
    Next, moving up to the State-wide level of a National 
network of fusion centers, leveraging outreach efforts that are 
done at that level, whether it is through the FBI system that 
they have, with outreach to State and local partners and 
private sector, which is really bringing together the State and 
local law enforcement and the private-sector communities.
    From a DHS perspective, we have moved forward on corporate 
security symposiums throughout the country, throughout 12 
regions, having one at least in every region over the past 
year, where we bring together private-sector security officers, 
brief them on threat, bring up the National Suspicious Activity 
Reporting, and make them aware of where we stand in the country 
today with regard to the counterterrorism threat.
    That is a on-going process, but I think the private-sector 
piece is a vast task that all of us collectively will have to 
work to engage, to be accomplished.
    Mr. King. Thank you.
    The Ranking Member, Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Flynn. you were talking about the need to keep, not 
only get people, first responders and other people trained, but 
to keep them engaged in the fusion center and the sharing of 
information. How do you, how would you propose that you, you 
know, not just make it about training, and then you get the 
training, and you do nothing with it, but you actually stay 
engaged, and are very proactive?
    Mr. Flynn. Yes, ma'am. I can really only speak for my 
center. What we have. What my marching orders have been for my 
analysts is we are staying very aggressive for developing our 
fusion liaison officer program.
    We are training specific officers, whether it is in certain 
districts within our county alone, but all of our neighboring 
counties, such as Arlington, Alexandria. We are helping them 
stand up their programs because some of them have slightly fell 
behind.
    Once we do that and we get them trained, we meet on a 
monthly basis face-to-face. There is no e-mail, there is no on-
line meetings. We find a location and we bring everyone 
together. I ensure that they know that they have value to bring 
to the table.
    We have done a lot of outreach, a lot of partnering where I 
have gone out and actually knocked on the doors of agencies and 
said, ``I am here to talk to you. I would like to let you know 
what we can do for you, that we should be considered a force 
multiplier on your benefit.''
    What that has done is brought more and more agencies from 
different disciplines, whether it is military, Federal, State, 
and local law enforcement, and then all of the analysts, and 
now some of the private-sector companies that are involved in 
the analytics are starting to hear about what we are doing in 
Northern Virginia.
    They are starting, now, to bring some of their resources to 
us, so that way we can expand our communication gap. What we 
are always trying to do is ensure that people understand that 
they are getting something from us, but we have value for what 
they are telling us.
    The luxury for me is that I only have 1,000 square miles to 
cover, and I can drive from anywhere in Loudoun County to 
Alexandria in a short amount of time. We can host these 
meetings.
    The issue will probably be for the larger fusion centers, 
such as the Virginia Fusion Center, which is in Richmond, how 
do they make that all happened between Bristol and Colonial 
Beach? Or how do you go to North Carolina and have one State 
center that is going to be able to meet with everybody on a 
regular basis?
    It is a challenge for them that they have to find a way to 
identify. I have the luxury of being regional and small and 
having direct, one-on-one contact, and I have a multitude of 
analysts that maintain those relationships for me and are 
directed to maintain it.
    So the other part of the program is that I find ways to 
bring training into the region to build those partnerships 
also. So I have had the Department of Homeland Security come in 
and give Intelligence Commanders courses. We are soon 
partnering with the NSI to put on a regional SAR class here in 
October, but I have the military sponsoring it for us, to put 
up the facility so we can have the whole National capital 
region engaged.
    How--and I take that also because I chair the COG committee 
on intelligence, also. I have taken that same philosophy where 
we are trying to ensure that people understand they have value 
in what they are doing, and we need their information just as 
much as they need mine.
    So we try to provide the feedback on a regular basis. We 
try to engage one-on-one on a regular basis. A lot of the time, 
now, we are getting the smaller agencies to call us first, 
saying, ``I have something, can you help me with this?'' We 
usually do provide that for them.
    So as long as my analysts maintain that one-on-one contact 
and that partnership and that level of trust and those people 
understand that there is a level of value to what they are 
doing for all of us here in this room, even, it keeps them 
engaged. That is how I keep this program going. I keep 
investing in people's value.
    Miss Rice. This is--my final question would be, to all of 
you, asking you to discuss the importance of maintaining robust 
funding for SAR. How important is that?
    Mr. Taylor. I will start, ma'am.
    I think, from a DHS perspective, as you mentioned earlier, 
the funding has, due to physical constraints, the funding has 
decreased over the years of the program. I think we can always 
do more with more funding.
    What we have seen over the years that I have been here is 
a, while the number of SARs themselves have maybe stayed 
consistent as far as being reported, due to tightening of 
budgets and personnel, et cetera, that are allocated to the 
program, it does impact training. It does impact that level of 
being able to work, whether it is through on-line sources or 
in-person training with our State and local partners, to keep 
them up-to-date and refreshed.
    The physical constraints actually definitely plays a part 
in that effort. I think it is probably more so done from a 
State and local effort, as far as what impact they can have 
because they are really the you know, the cops on the beat, out 
on the ground.
    From us, it is more that corporate, how are we refreshing 
training programs, trying to make them relevant and usable for 
the front-line officers. But it is, it certainly has had an 
impact, I think, over the years. We would look forward to 
having dialog with your staff on how to fix that going forward.
    Mr. Evans. I think, I agree 100 percent. I think that, as 
local police agencies, we rely quite a bit on the whole idea of 
people, see--you know, ``See Something, Say Something.''
    We carry on major events in our cities, and to be able to 
train the public to look for suspicious activity, and to train 
our officers, which has become key, to look when they are at 
these major events, whether they are at Fenway Park, where we 
recently did a training exercise on how to respond to an 
active-shooter event. But we train our officers, whether it is 
at any of these major events, to look at anyone approaching 
with the whole idea of recognizing the characteristics of 
someone who might be carrying a bomb or who might be carrying a 
gun.
    So it is imperative that we keep this, the budget at the 
way it is, because we need the resources not only to train the 
public, who are our eyes and ears, but more importantly, for 
our officers to recognize the characteristics that might 
intercept what happened, you know, on April 15, 2013, which was 
a tragedy.
    But we do work very closely with all our both private and 
non-government agencies. We have what is called the BRIC 
Shield, where, every day, a thousand of those agencies receive 
up-to-date, real crime-time information on crime trends, as 
well as suspicious activity surrounding homeland security.
    So, you know, they also receive the benefit, all the 
agencies out there, from the training they receive from us. So 
not only is it the police, the public, but it is also all our 
private and non-Government agencies who get it. So it is key in 
our battle to fight, you know, the terrorist threat right now.
    Mr. Fuentes. So the success of the SAR initiative is 
apparent from the number of really successful and effective 
investigations that it has produced, as was pointed out by Mr. 
Taylor.
    But, however, there is an infrastructure to this that 
requires training, technology, the hiring of analysts. All of 
that feeds into a system that makes these processes more 
effective, and particularly as it pertains to individuals we 
can send out to train these Fusion Center liaison officers who 
report back the things that see in their police departments.
    In the case of New Jersey, that is 479 full-time police 
departments in the States. In the other States, there is many 
more than that. That is time-consuming, and it takes personnel 
to do that.
    So I think the return on investment for the funding that is 
provided for this program is apparent. I hope it continues to 
include the funding of the UASI regions, from which at least 
the Fusion Center in New Jersey derives great benefits. So I 
would encourage that that funding level stay up or enlarge.
    Mr. Flynn. It is always hard to talk about finances, ma'am. 
I apologize. It is every day it is something in my head about 
the money. The reporting and receiving is very easy. Like I 
said, we get most of our information of our SARs through e-
mail, a PDF file, a copy of a report, because I can't access 
other agencies' record management systems. So I have to rely on 
the FLOs to send me this data.
    The hard part is, then taking it and putting in to a secure 
system that will hold on to it and meet the guidelines of the 
C28 CFR and so forth, and are we able to afford those systems 
to secure that data. That is one of the challenges that we have 
right now is, what can I affordably pay for and then maintain 
on a yearly basis with that subscription?
    So, a lot of these software programs, I am sure you are 
aware, can start from anywhere from $40,000 into my budget all 
the way up to well over $100,000, if not millions for what we 
have. Again, I am sure you are aware from the New York issues 
going on. So, I am trying to constantly find new ways to 
leverage. How do we effectively spend the money and get the 
best value of it?
    I have to get rid of other programs that may work well, but 
we are not using them. So we no longer pay for that software so 
I can go and get something else that is either a little cheaper 
or get something that we actually can show to our elected 
officials, we are getting value of what you are investing into.
    As the superintendent stated, you know, one of the 
challenges for us, at least as Fairfax County, we were lucky, 
years ago, that our board of supervisors decided that there is 
value in hosting the Northern Virginia Regional Intelligence 
Center. They put up all the money for the county budget, pretty 
much, they pay for us to be there, but we still have to receive 
UASI grant funding. So as that money comes and goes or they 
decide what we get, I have to go through the Metropolitan-
Washington Council of Governments to get a determination. Am I 
going to be awarded that money?
    This is the first year we have been told, you are starting 
with zero. You have to prove to us why you are going to get 
that money for next year. So it is a change in because they 
have to, and I understand where the executives are coming from. 
Are they getting value for what they are investing money into?
    We do provide that investment, every day, to every agency 
in Northern Virginia, if not the State of Virginia, if not in 
the Capitol region. But are the executives getting the products 
that we are giving? Are they seeing our relationship building 
up and how the success stories that you are seeking, are they 
actually being told that that is what is happening?
    So, there are success stories happening through the SAR 
program. We have been able to identify, recently, several 
things and it is actually firefighters who are giving this 
information to us now. There is other people the citizens are 
sending in stuff to the State of Virginia and they send it back 
up to Northern Virginia and it leads into a re-identification 
of an individual that maybe we weren't looking at, that we 
stopped looking at years ago.
    So there are success stories. It is just a matter of, and I 
am sure the panel would agree, is affordably having technology 
that secures it and manages it for us safely and properly, and 
then, how do we give you a product that you could easily 
understand?
    Miss Rice. Thank you.
    Mr. King. Thank you.
    Gentleman from Texas, Mr. Hurd.
    Mr. Hurd. Thank you, Mr. Chairman.
    Gentlemen, thank you all for being here. I just have one 
question and I will ask it of each one of you and, Mr. Taylor, 
have you start. But before I get to the question I am going to 
give you some context. I spent 9\1/2\ years as an undercover 
officer in the CIA, primarily overseas, I was in the agency 
before 9/11. It has been pretty amazing how information sharing 
has improved across the Federal Government and I would call 
that lateral sharing.
    The area that we have improvement in is what I would call 
vertical sharing and that is getting information into you-all's 
hands and to local law enforcement. Because I think you have 
the most difficult challenge and that is the lone-wolf problem. 
My question is in the Orlando killer, he cased five locations.
    I believe three of those locations had private security. My 
question is, in that scenario, are we training the private 
security or are the private security folks able to get and 
participate in the National, Nation-wide Suspicious Activity 
Reporting Initiative? Is their information getting into 
eGuardian? Who is looking at that?
    So, I know we are talking a lot about what the public is 
providing, but when you talk about private security that we 
have at malls and places that are highly trafficked. Places 
that are, most likely, to have somebody in a car run through 
the public. How, what, talk to me, help me understand the kind 
of interaction we are having with private security. Mr. Taylor, 
I will start with you and then gentlemen if you all can talk 
about this problem unique to your area of operations that would 
be helpful.
    Mr. Taylor.
    Mr. Taylor. Thank you, sir, for the question. Let me start 
with the training. The training is the most valuable aspect 
here in making sure we reach out to a whole host of people who 
have access, for example, the private sector, the security 
officers. One of the two methods that we at DHS and our 
colleagues with the FBI pursue as far as training, one is in-
person training, where physically experts----
    Mr. Hurd. So, let me ask you this Mr. Taylor. Is G4, are 
they, do they include when they on-board a new class of 
officials? Is somebody from your office or is someone talking 
to them about the NSI program or eGuardian?
    Mr. Taylor. So, it could. It depends. A lot of this we will 
leverage to State and locals for some of that training. The 
National Suspicious Activity, NSI system has a pretty robust 
on-line system for training, where there are nine hometown 
security modulars in there for people to go on to.
    It is an open website. One of those is focused on security 
guards, and I know Colonel Fuentes will comment on this in a 
second. As, in order to get a security guard license in the 
State of New Jersey, they are required to pass that training 
and present that. So that is something we have done in order to 
try to encourage and effect change and receive that reporting 
from those types of individuals.
    Mr. Hurd. That is really helpful with New Jersey as an 
example. Are there other States that follow this Jersey model 
that you know of, Mr. Taylor?
    Mr. Taylor. I would have to go back and look into that.
    Mr. Hurd. Thank you.
    Mr. Fuentes.
    Mr. Fuentes. So we have a unit that is dedicated in the 
ROIC for exactly this reason. It is called the Private Sector 
Outreach Unit, and as Mr. Taylor pointed out, it does involve 
the training of private security guards, but it extends out to 
infrastructure like malls, airports, general aviation airports.
    To emphasize what Mr. Flynn said, fire departments and 
emergency medical responders often see things because of the 
nature of the responses that they make. So it is very, very 
important for those individuals to be trained up. Also of some 
concern and I had alluded to this in my opening comments, is 
that some of these very industries have been used by people 
such as Omar Mateen and I know that is the case that you 
referenced.
    In terms of becoming a security guard, and some of these 
professions that allow people to more normally access weapons 
as part of their profession, a lot of the holdings of those 
databases lie in the States. To go back to my comments, it is 
important for the States, who maintain those databases, to work 
in an enhanced integration model with the FBI and with DHS to 
make sure that nobody is falling through the cracks.
    When an investigation may cease on an individual, if a 
State, from the outset of sending that guardian over to the 
FBI, also makes note of that individual, we could actually trip 
a wire in those databases to make sure that, over the course of 
5 years, that we can maintain such reports. That person will 
not purchase a weapon.
    Mr. Hurd. Yes, and, look, I think the follow-up is all 
good, you know. I think we have so many examples. But it is 
that initial, you know, the initial contact with a potential 
lone wolf that has never come across the law enforcement's 
radar.
    Colonel Fuentes, let me make sure I am clear. In the State 
of New Jersey, if you want to get licensed to be a security 
guard, part of your training is on the NSI program?
    Mr. Fuentes. Yes, sir. They are instructed how to utilize 
that program.
    Mr. Hurd. Good copy, thank you. Mr. Evans.
    Mr. Evans. As far as, again, like I said, we have the BRIC 
Shield program, where we work with about a thousand private and 
non-Government agencies on these issues, on you know, the 
constant threat of, you know, terrorism and what not. We train 
up quite a bit with them.
    You know, we trained at Fenway Park, we trained at the T.D. 
Knotts center on suspicious activity, as well as what should 
happen should we have an active-shooter training. We do it with 
all our hospitals in the area. We have constant training.
    All our colleges, whether it is B.C., Boston University, 
Harvard, you know, we are always in constant dialog. So the 
sharing of information, suspicious activity and what to look 
out for, that is very much an on-going dialog.
    Every day there is a call, and every day there is a 
bulletin that go out to all of these 1,000 partners in our BRIC 
Shield program to let them know, to train them, but also to be 
a partner. As far as the night clubs go, again, we are in 
constant contact, constant active-shooter training with them.
    So the training that goes between all our private and non-
government is constant. The sharing of suspicious activity is 
constant, and I think, you know, that is something I think that 
we take a lot of pride in on the partnerships we have, not only 
with all our Government agencies, but with all the private 
clubs, colleges, hospitals, as well as our sports facilities.
    Mr. Hurd. Thank you.
    Mr. Flynn. Yes, sir. I am not fully up to speed on 
everything, because I am just a regional center. What I can 
tell you about the State of Virginia, though, is if you are, 
there are levels of training that the Department of Criminal 
Justice Services provide to certify security officers in the 
State of Virginia.
    Depending on the level, if they are going to be armed or 
not, can change what they have, and what are their main hours 
or how many hours they have to meet for accreditation, I am not 
really sure, sir. I do not believe that the SAR program is one 
of their topics that they spend, especially when it is 
difficult for me just to get to a police academy and explain to 
them what the SAR program is, so I don't think it is something 
a security guard--the other challenge is obviously, you have is 
you do have the private-sector, large, corporate security 
groups that are involved with the private with the fusion 
centers and ours.
    We do provide them FOUO information and so forth that they 
can use at, let's say, Springfield Town Center or Tysons 
Corner. But it is the smaller ones that, you know, if they 
don't have to meet the DCGS standards, we may never even know 
who they are.
    So as we work with, let's say, InfraGard and so forth, and 
try to build up that relationship with them, we are going to 
try to use them as an outlet of outreach to get to those other 
large, private-sector security guard programs and so forth.
    Mr. Hurd. Copy.
    Mr. Chairman, I yield back the time I do not have.
    Mr. King. Thank you. Typical Texan.
    Gentleman from Massachusetts, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Couple of major points that we got after the review we did 
in this committee on the Boston Marathon bombing and some of 
the red flags, it is encouraging to hear the information 
sharing consistently going forward and improving. That was one 
of them.
    The other is, the multiplier affect that is there as a 
result of the information sharing, but also getting down to the 
first responders at the local and regional levels. Taking 
advantage of the numbers that are there and with Deputy 
Director Flynn's comments, one of the areas that I think we 
should really be gearing in on, is his comments regarding 
technology. The fact that it is not uniform, the fact that it 
is not available, because for the cost effectiveness, that, to 
me, is a great multiplier because you are giving those tools to 
directly go to the front-line level and I will just coordinate 
this with one other question.
    Even though lone wolves remain our greatest fear, I am very 
concerned when you see attacks like the ones that occurred in 
Spain, the more coordinated, simultaneous attacks. I think the 
training, the communication, but also that technology and 
making it uniform could be very effective in dealing with that. 
What do you see for the ability to deal with these simultaneous 
attacks and the need for technological investment?
    Mr. Flynn. Sure, I will start off on the technology side of 
things. There has been a complete shift and change in the use 
of the technology and the ability to get information probably 
even within the last 12 months if not less.
    With the changes of the protocols of social media 
companies, let's for say, we basically, it is almost turning 
off or killing companies that used to do that kind of work 
where you could buy an application, set your filters up, and 
boom, you could walk away and come back 2 hours later and see 
who has just made the latest threat to a school or a shopping 
center or a law enforcement agency or the Government.
    That is no longer there anymore. The, all of you at this 
committee and myself and the people of this panel have the same 
skills and abilities now as my analysts do. It is just they do 
it more often and are used to the common terminology on how to 
do the open-source research, I would say.
    I don't like to use the word monitor, we don't use the word 
monitor because we don't monitor our citizens. We are not going 
to violate their civil rights. We are in compliance with the 
training from the Bureau of Justice. So we are adhering to 
those standards. So, all we can do is, when there is a request 
for a threat assessment, we just do an open source whether it 
is through Google or anything else to say, hey, what is out 
there, what is a common term, what is going on? That is the 
only way we can find this information that is out there on the 
world.
    The other part of it now is the development of new 
applications that are encrypted, that the groups and the 
organizations, as they learn about what we can do in law 
enforcement and as we come out and we testify in the open 
setting or in court, they take that information and turn it 
into their intelligence.
    So, for example, Charlottesville, when the Virginia Fusion 
Center thought there was only going to be a couple hundred 
people show up and all of a sudden 4,000 people show up, we are 
highly convinced now that they were using secured applications 
to communicate between each other and we have no way of finding 
out what they are saying, what they are doing.
    So they will put something on social media saying, hey, 
please show up here and you might get five people that like it 
and then these executives that are sitting with me today have 
to make a decision based on either history or what the Fusion 
Center is going to tell them and say, hey, only five people 
liked this or said they are coming.
    They may stand up a whole agency or just set up a whole CDU 
deployment of 20 guys and now they have to roll the dice of, do 
I get 5,000 protesters or are we still going to get those 10 or 
do I get nothing. That is the latest challenge that we have 
right now in law enforcement. So we try not, anymore to say, we 
don't know of any threats because we are not going to know 
because they are securely communicating with each other.
    Mr. Keating. What about the possibility of the simultaneous 
attacks? It presents greater challenges, too, because you just 
don't know logistically how far away they will be. But, being 
able to instantly coordinate information could be so critical 
there. Is there, are there any gaps or challenges you have 
that, resource-wise, we could be helpful with?
    Mr. Evans. I think the Homeland Security like, when we talk 
about Urban Shield, that is the whole idea. How do you respond 
to several incidents happening at the same time? I think, you 
know, we have, I think we have done at least three of those, 
multi-agency.
    I want to go back to the Boston Marathon bombing. I think, 
you know, the ability for everyone to respond the way they did, 
and the ability of everyone knowing each other's capabilities, 
that is why were able to take about 267 injured from the 
different trauma centers, and every one of them survived. That 
doesn't happen by accident. That happens by training between 
multi-jurisdictional agencies on several attacks in several 
areas.
    That is why it is important to keep programs going, funded 
by Homeland Security, to carry on these type of operations. So 
if there is and we practice it. If there is an incident----
    Mr. Keating. So the UASI grants, for instance.
    Mr. Evans. Right.
    Mr. Keating. A great example, and you would be happy to 
know, even though they are cut 25 percent by the 
administration, their budget, House appropriations is actually 
increasing.
    Mr. Evans. Well, I appreciate it. But we practice. What if 
there is a bomb going off at the train station while we have 
something going off at Fenway Park, and then you have an 
incident on a boat? That is what Urban Shield has been able to 
say. So we will say, ``We will cover this, the State will cover 
this.''
    So, you know, we do train up on that, and we are always 
worried about that, but----
    Mr. Keating. We are seeing more and more in Europe and 
other areas----
    Mr. Evans. I agree.
    Mr. Keating. So there is no question someday, you know, we 
are going to be countering some of those challenges.
    If I could, Mr. Chairman, one question. I am over my time. 
If I could have just one question, that I think should be 
addressed, that is in the minds of many with the SAR Program 
and things, and that is that there are active training and 
policies to make sure privacy rights and civil rights are 
protected in this.
    I wanted to give you a chance, publicly, to explain how 
those things are implemented, and indeed, there are there, so 
the people that should be aware of that. Anyway, you want to--
--
    Mr. Taylor. Sir, I think from a DHS perspective, privacy, 
civil rights, civil liberties, really for the NSI program, has 
been a cornerstone of the program since it began. It is 
something that is under periodic review, as far as the program, 
the data that is submitted into the NSI, proper review of the 
functional standards, the review of those indicators, et 
cetera, that are indicative, reasonably indicative, of 
terrorist operation preoperational planning. Those are 
constantly reviewed from a DHS perspective, and I would say, 
along with my colleagues from the FBI, it is something of 
utmost importance.
    Mr. Fuentes. So, sir, I can tell you, before the lights go 
on on any of these initiatives, they are subject to legal 
review. I did mention this pilot we are looking to engage in 
with the FBI, which focuses upon enhanced integration at the 
front end of Guardian, and of investigations involving the 
State. Right now, that is under legal review.
    So, we subject everything, to include every single report 
that comes out of the Fusion Center and that is thousands upon 
thousands of reports every year are subject to a privacy 
review. There is actually a component within the Fusion Center 
that DHS mandates, that takes a look. It is part of the 
intelligence cycle, before we put information out, that we make 
sure that it does not violate privacy interests or 
Constitutional liberties.
    Mr. Keating. All right, thank you very much. I yield back.
    Mr. King. Thank you, Bill.
    I just have one question, and it is to Superintendent 
Fuentes. In your statement, you mentioned about an incident in 
Point Pleasant, New Jersey, which seemed to start from pretty, 
not-so-serious matter of some person threatening to kill his 
dog, and how that led all the way to a terrorist indictment. 
Can you just discuss that? Again, I think that is an example of 
how effective this program can be, and how something that may 
not seem that critical turns out to be very important.
    Mr. Fuentes. Right, so that began in Point Pleasant, 
involved the Point Pleasant Police Department, and really 
involved a domestic disturbance, a domestic situation. The 
police did immediate follow-up, and a very diligent 
investigation, and during the course of that investigation, 
they found a copy of Inspire magazine and particularly, an 
article that involved the construction of a device that could 
be, that we are seeing are common now, a pressure cooker 
device, in some of these instances, such as, even, I think, the 
Rahami incident.
    So, I think it was the great work of that police 
department. It was the great work of the person who queued up 
the police department, which was essentially a SAR that was 
transmitted to the police department, and ended up with, 
actually, a case being picked up by the FBI to target this 
individual, who had plans to carry out an attack.
    Mr. King. Similar to the device used in the Boston Marathon 
bombing, I believe. Right? Thank you.
    Listen, I am going to thank and, Kathleen, you have any, 
OK, I want to thank all of the witnesses for your testimony 
today. I found this extremely enlightening, extremely 
educational, especially coming on the first anniversary of 
September 11, I mean, the 16th anniversary of September 11, 
same week. To me, it, again, shows how we have to stay 
committed. We have to stay aware of what is happening, and this 
is a really vital, integral part of that. Also, the level of 
cooperation between the different levels of government, I 
think, is really, you know, very encouraging.
    So, I thank all of you for your service, and I guess the 
best thing we can say is that the fact that the public may 
become complacent is because of the outstanding work that you 
are doing. So the job is to keep doing the outstanding work, at 
the same time, though, keep the public aware of what is 
happening. That you know, that is the challenge we face today.
    But thank you for the great job you do, and I just advise 
you, the Members of the subcommittee may have some additional 
questions for the witnesses, and we will ask you to respond to 
those in writing. But pursuant to committee rule VII(D), the 
hearing record will be held open for 10 days.
    Without objection, the subcommittee stands adjourned. Thank 
you very much.
    [Whereupon, at 11:19 a.m., the subcommittee was adjourned.]

                                 [all]
                                 
                                 
                                 
                                 
</pre></body></html>
